No. 20-

IN THE SUPREME COURT OF THE UNITED STATES

PROTECT OUR PARKS, INC. AND MARIA VALENCIA,

Petitioners,

v.
THE CITY OF CHICAGO AND THE CHICAGO PARK DISTRICT,
Respondents.

On Petition for Writ of Certiorari
to the United States Court of Appeals for the Seventh Circuit
PETITION FOR WRIT OF CERTIORARI

Richard A. Epstein
16 Thomas Place
Norwalk, Connecticut 06853
773-450-4476
raepstein43@gmail.com
Michael Rachlis

Counsel of Record

Rachlis Duff & Peel LLC
542 South Dearborn Street
Suite 900
Chicago, Illinois 60605
mrachlis@rdaplaw.net

Counsel for Petitioners

QUESTIONS PRESENTED
The questions presented are:
1. Whether the Plaintiffs possess Article III standing to bring their takings
and due process claims in light of the Seventh Circuit’s application of
Lujan v. National Wildlife Federation, 497 U.S. 871 (1990) and similar
authorities of this Court?
2. If standing exists, whether the City of Chicago violated Plaintiffs’ Fifth
and Fourteenth Amendment rights on their takings and due process
claims?

i

PARTIES TO THE PROCEEDING AND CORPORATE DISCLOSURE
Petitioners are Protect Our Parks, Inc. and Maria Valencia.
The Respondents are the City of Chicago and the Chicago Park District.
Petitioner Protect Our Parks, Inc. is a non-profit corporation with no parent
entities that does not issue stock.
RELATED PROCEEDINGS
Protect Our Parks, Inc. v. Chicago Park District, et al, No. 18-cv-03424, U.S.
District Court for the Northern District of Illinois. Judgment entered June
11, 2019 (Motion for Summary Judgment) and November 6, 2019 (Rule 60
Motion).
Protect Our Parks, Inc. v. Chicago Park District, et al, Nos. 19-2308 and 193333 (Consolidated), U.S. Court of Appeals for the Seventh Circuit. Judgment
entered on August 21, 2020; rehearing denied on October 8, 2020 (amended
October 13, 2020).

ii

Table Of Contents
Questions Presented .....................................................................................................i
Parties To The Proceeding and Corporate Disclosure............................................... ii
Related Proceedings.................................................................................................... ii
Table Of Contents ...................................................................................................... iii
Table Of Contents To Appendix ................................................................................. iv
Table Of Authorities .................................................................................................... v
Opinion Below .............................................................................................................. 1
Statement Of Jurisdiction ........................................................................................... 1
Statutory Provisions Involved ..................................................................................... 1
Statement Of The Case ............................................................................................... 3
Reasons For Granting The Writ ................................................................................ 10
I. Review Is Warranted To Resolve The Conflict Created By The Seventh
Circuit’s Decision On Article III Standing ..................................................... 10
II. If The Plaintiffs Have Standing To Assert Their Federal Claims Under
Article III, Then The Seventh Circuit Erred In Holding That The Loss Of
These Interests Did Not Create Either A Takings Or A Due Process
Violation .......................................................................................................... 18
Conclusion .................................................................................................................. 26

iii

Table Of Contents To Appendix
Appendix A:
Protect Our Parks, Inc. v. Chicago Park District, et al, Nos. 19-2308 and 19-3333
(Consolidated), U.S. Court of Appeals for the Seventh Circuit - Judgment entered on
August 21, 2020
Appendix B:
Protect Our Parks, Inc. v. Chicago Park District, et al, No. 18-cv-03424, U.S. District
Court for the Northern District of Illinois - Judgment entered (denying Rule 60
Motion) on November 6, 2019
Appendix C:
Protect Our Parks, Inc. v. Chicago Park District, et al, No. 18-cv-03424, U.S. District
Court for the Northern District of Illinois - Judgment entered (granting Defendants’
Motion for Summary Judgment) on June 11, 2019
Appendix D:
Protect Our Parks, Inc. v. Chicago Park District, et al, Nos. 19-2308 and 19-3333
(Consolidated), U.S. Court of Appeals for the Seventh Circuit – Judgment (amended)
entered (denying rehearing) on October 13, 2020

iv

Table Of Authorities
Booker-El v. Superintendent, Indiana State Prison,
668 F.3d 896 (7th Cir. 2012) ....................................................................... 13, 15-17
Board of Regents of State Colleges v. Roth,
408 U.S. 564 (1972) .......................................................................................... 19, 23
Flast v. Cohen,
392 U.S. 83 (1968) ...................................................................................... 11, 11 n.1
Friends of the Earth, Inc. v. Laidlaw Environmental Services (TOC), Inc.,
528 U.S. 167 (2000) ................................................................................................ 17
Illinois Central Railroad Co. v. Illinois,
146 U.S. 387 (1892) ................................................................................................ 25
Knick v. Township of Scott, Pennsylvania,
139 S. Ct. 2162 (2019) ............................................................................................ 18
Lake Michigan Federation v. U.S. Army Corps of Engineers,
742 F. Supp. 441 (N.D. Ill. 1990) ...................................................................... 24-25
Lujan v. National Wildlife Federation,
497 U.S. 871 (1990) .................................................................... i, 3, 8, 10-11, 13, 16
Mathews v. Eldridge,
424 U.S. 319 (1976) ................................................................................................ 18
Monongahela Navigation Co. v. United States,
148 U.S. 312 (1893) ................................................................................................ 24
Paepcke v. Public Bldg. Comm’n of Chicago,
263 N.E2d 11 (1970) ............................................................... 8, 13-14, 18, 20-22, 24
Patsy v. Bd. Of Regents,
457 U.S. 496 (1982) ................................................................................................ 18
Paul v. Davis,
424 U.S. 693 (1976) .......................................................................................... 20, 23
Protect Our Parks, Inc. v. Chicago Park District, et al,
971 F.3d 722 (7th Cir. 2020) ........................................................................... passim

v

Protect Our Parks, Inc. v. Chicago Park District, et al,
385 F. Supp. 3d 662 (N.D. Ill. 2019) .................................................................... 1, 7
Spokeo Inc. v. Robins,
136 S.Ct. 1540 (2016) .................................................................................... 9, 17-18
South Park Commissioners v. Montgomery Ward & Co.,
93 N.E. 910 (1910) .................................................................................................. 22
Town of Castle Rock, Colo. v. Gonzales,
545 U.S. 748 (2005) ................................................................................................ 23
U.S. v. Mitchell,
463 U.S. 206 (1983) ................................................................................................ 14
U.S. v. Richardson,
418 U.S 166 (1974) ............................................................................................ 10-11
Valley Forge Christian College v. Americans United for Separation of Church and
State, Inc.,
454 U.S. 464 (1982) .......................................................................................... 11 n.1
Warth v. Seldin,
422 U.S. 490 (1975) ............................................................................................ 9, 17
Federal Statutes
U.S. Const. Article III ..........................................................................................passim
U.S. Const. amendment V ................................................................................ i, 1, 9, 18
U.S. Const. amendment XIV ................................................................................ i, 2, 25
28 U.S.C. § 1254 (1) ....................................................................................................... 1
42 U.S.C. § 1983 ....................................................................................................... 2, 18
44 U.S.C. § 2101, et seq. ................................................................................................. 6
54 U.S.C. § 306101
(National Historic Preservation Act of 1966, Section 106) ..................................... 7

vi

Federal Rules Of Civil Procedure
Rule 60 .................................................................................................................. 7-8, 10
State Statutes
California Civil Code § 3479 ........................................................................................ 21
Other Authority
Restatement (Second) of Torts §821D ......................................................................... 21
Robert G. Natelson, Legal Origins of the Necessary and
Proper Clause 52, 53, in Gary Lawson, THE ORIGINS
OF THE NECESSARY AND PROPER CLAUSE (2010) ............................................. 14-15
John Locke, THE SECOND TREATISE OF GOVERNMENT: § 136
(1690) ..................................................................................................................... 14
Robert G. Natelson, The Constitution and the Public Trust,
52 BUFF. L. REV. 1077 (2004) ................................................................................ 15

vii

OPINION BELOW
The opinion of the United States Court of Appeals for the Seventh Circuit is
reported at Protect Our Parks, Inc. v. Chicago Park District, et al, 971 F.3d 722 (7th
Cir. 2020). (Appendix A) The Seventh Circuit opinion affirmed in part and vacated
in other part the decisions of the United States District Court for the Northern
District of Illinois (Appendices B, C), reported at 385 F. Supp. 3d 662 (N.D. Ill. 2019).
STATEMENT OF JURISDICTION
This Court’s jurisdiction is invoked under 28 U.S.C. § 1254 (1).
The Seventh Circuit’s opinion was issued on August 21, 2020. The Seventh
Circuit denied a Petition for Rehearing on October 8, 2020 (amended on October 13,
2020). This petition is timely based on the Supreme Court’s March 19, 2020 Order
extending deadlines to 150 days.
STATUTORY PROVISIONS INVOLVED
The United States Constitution, Fifth Amendment:
No person shall be held to answer for a capital, or otherwise infamous crime, unless
on a presentment or indictment of a Grand Jury, except in cases arising in the land
or naval forces, or in the Militia, when in actual service in time of War or public
danger; nor shall any person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness
against himself; nor be deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without just compensation.

1

The United States Constitution, Fourteenth Amendment:
Section 1
All persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No
State shall make or enforce any law which shall abridge the privileges or immunities
of citizens of the United States; nor shall any State deprive any person of life, liberty,
or property, without due process of law; nor deny to any person within its jurisdiction
the equal protection of the laws.
Section 5
The Congress shall have the power to enforce, by appropriate legislation, the
provisions of this article.
42 U.S.C § 1983:
Civil action for deprivation of rights
Every person who, under color of any statute, ordinance, regulation, custom, or usage,
of any State or Territory or the District of Columbia, subjects, or causes to be
subjected, any citizen of the United States or other person within the jurisdiction
thereof to the deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an action at law, suit in
equity, or other proper proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in such officer's judicial capacity,
injunctive relief shall not be granted unless a declaratory decree was violated or
declaratory relief was unavailable. For the purposes of this section, any Act of

2

Congress applicable exclusively to the District of Columbia shall be considered to be
a statute of the District of Columbia.
STATEMENT OF THE CASE
1.

Based upon the complaint and record before it, the Seventh Circuit

Court of Appeals held that Plaintiffs Protect Our Parks, Inc. and Maria Valencia
lacked standing in federal court to raise their state law claims that, inter alia, both
the City of Chicago and the Chicago Park District violated the Illinois public trust
doctrine when, for a total consideration of $10 received, they gave away nearly 20
acres of public parkland and public monies to a private entity, the Obama
Foundation.

The Seventh Circuit, interpreting Lujan v. National Wildlife

Federation, 497 U.S. 871 (1990), determined that Plaintiffs’ state law claims—which
were based upon an undivided interest in public trust land which the Illinois
Supreme Court adopts for establishing standing under Illinois law—did not satisfy
Article III’s standing requirement because of a lack of a particularized and concrete
injury. In that same opinion, however, the Seventh Circuit reversed field to hold that
the want of any particularized and concrete injury was no bar under Article III to
prevent adjudication of Plaintiffs’ federal takings and due process claims in federal
court. After retaining jurisdiction on those federal claims, the Seventh Circuit
affirmed the district court’s grant of summary judgment on the merits of both federal
claims.
2.

The history of this case begins in 1869 when the State of Illinois enacted

a statute that conveyed Jackson Park to a public commission to hold the property in

3

trust for its citizens. That grant provides that the property “shall be held,
managed and controlled by [the Commissioners] and their successors as a
public park, for the recreation, health and benefit of the public, and free to
all persons forever.” (emphasis supplied) The Illinois General Assembly deeded
the real estate comprising Jackson Park to what would become the Chicago Park
District subject to the above referenced restrictions, binding on successors, in
perpetuity delineating the purposes for which the property may be used. From its
1869 dedication until 2018, Jackson Park was held in public trust by the South Park
Commission and its successor the Chicago Park District.
3.

The Obama Foundation (the “Foundation”) is a private, non-

governmental entity which, in approximately 2014, began its search for a home for a
presidential library for the 44thth President of the United States. Three related
proposals presented by the University of Chicago were to locate the presidential
library on the City of Chicago’s South Side, including in Jackson Park and another
near Washington Park. The University offered existing University-owned land and,
if necessary, acquiring additional lands. (See Appeal Docket No. 24, A.087-088)
Economic studies provided that the Washington Park site “would most amenably
accommodate new businesses and investment that might come into the area due to
the presence of a presidential library.” (District Court Docket No. 129-1 at
CITY_007881) Based on that information, the Washington Park site was ranked
highest by the Foundation as the location for the presidential library. (Appeal Docket
No. 24 at A.094, A.097, lines 8-16)

4

4.

Defendants City of Chicago and Chicago Park District did not take any

part in the Foundation’s initial efforts to site the OPC. Instead, the City Council
adopted an ordinance in 2015, which stated that the City understood that the
Foundation was looking to locate a presidential library in Chicago, and further
stipulated that the City would leave the choice entirely to the Foundation as to where
to locate that project and what to build. The City performed no report or analysis
that set forth the considerations and/or difficulties in regards to selecting Jackson
Park—the required road closings, the disrupted traffic patterns, the mass destruction
of mature trees, and the impact of the new construction on the visual and operational
integrity of Jackson Park. Nor did this, or indeed any other report, consider the site’s
physical ability to accommodate the proposed library, given that it abuts the West
Lagoon in Jackson Park whose close connection to Lake Michigan and its rising
waters poses serious risks of construction and maintenance of the OPC at that
location. Nor did these reports compare the pros and cons of the Jackson Park site
with sites located in or near Washington Park (or other locations), so no comparisons
or evaluations were made in order to determine which locations were superior in
terms of access to public transportation, potential for economic growth, reduction in
environmental damage, and cost effectiveness. (Appeal Docket No. 24 at A.102, lines
20-23; A.103, lines 15-19; A.104, lines 13-22)
5.

Facing no barriers or opposition from the City, the Foundation chose

to abandon its plan to build a presidential library. The Foundation unilaterally
redesignated its project as a presidential center which was done in part to avoid

5

statutory restrictions on the size of presidential libraries imposed under the National
Archives and Record Act. See 44 U.S.C. § 2101, et. seq. By calling the proposed
campus a “presidential center” those limitations, and others, no longer applied. Put
explicitly, the decision to build high and as large as desired inside Jackson Park was
made by the Foundation solely and for its own benefit. The upshot is that, with the
blessing of the City, the Foundation now hopes to place a 235-foot tall tower, a huge
forum building, a branch of a public library, and an athletic field on the Jackson Park
site.

It is planned to cut to the ground nearly 1000 mature trees and close major

vistas and thoroughfares which have peacefully coexisted since the Park’s 1869
dedication. Not only does the City wish to give this tract of land—arguably the most
valuable land inside Jackson Park—to the Foundation, but under their deal about 10
additional acres are slated to be lost to public use by expanding roadways on the east
and west edge of Jackson Park to offset, but only in minor part, the loss of four key
roads inside Jackson Park.
6.

Petitioner Protect Our Parks (“POP”) is an Illinois not-for-profit

charitable corporation registered under 501(c)(3). POP is comprised of individuals
who, as residents and taxpayers, enjoy access to and use of Chicago’s dedicated public
parks, including historic Jackson Park, and share in common the need and public
interest in enforcing the existing park protection laws and regulations to preserve
and protect Chicago’s public parks, including but not limited to protection from being
diverted to private interests. Maria Valencia is a Chicago resident, and uses public
parks in Chicago, including Jackson Park. They filed suit raising both state law

6

claims, including violation of public trust and ultra vires, as well as federal claims
alleging both taking and due process violations. Critically, both the state and federal
claims were based on the same fundamental argument that the Plaintiffs maintained
a beneficial and undivided interest in Jackson Park, which is recognized as public
trust property.
7.

The trial court granted the City’s and Park District’s motion for

summary judgment and denied Plaintiffs’ motion for summary judgment on all of
state and federal claims. 385 F. Supp. 3d 662 (N.D. Ill. 2019).
8.

POP and Valencia filed a timely appeal from the district court’s

judgment to the United States Circuit Court of Appeals for the Seventh Circuit.
(Appeal No. 19-2308) While that appeal was pending, certain new findings were
included within a special report that was prepared as part of ongoing statutorily
required reviews for the Foundation’s project, called an “assessment of effects” report
prepared pursuant to Section 106 of the National Historic Preservation Act. (Appeal
Docket No. 24 at A.294-320) Those exhaustive findings conclusively demonstrated
the significant and severe adverse effects associated with the proposed OPC project,
and, the Plaintiffs contended, established undisputable facts that ran counter to the
district court’s summary judgment rulings. Plaintiffs then filed a Federal Rule of
Civil Procedure 60 motion advising the court of those adverse findings, and then
asked for post-judgment relief by re-opening the record on the strength of new
information not previously available to the district court. (District Court Docket No.
156) The district court refused on the ground that the Defendants met the standard

7

of care under the public trust doctrine, by showing that their paperwork for the
ordinance complied with all formal requirements, or, failing that, demonstrating at
least one public benefit, which controlled no matter how many objections could be
raised to it. The district court’s Rule 60 decision was then appealed (Appeal Case No.
19-3333), and the two appeals were consolidated. (Appeal Docket No. 28)
9.

On August 21, 2020, the Seventh Circuit issued its opinion in this

matter. As to Plaintiffs’ state law claims, the Seventh Circuit reversed the district
court’s summary judgment finding that there was no subject matter jurisdiction,
holding that there was no Article III jurisdiction for those claims. The Seventh
Circuit stated, for example, that the Plaintiffs’ “public trust and ultra vires claims
each allege only that the government has failed to follow the law.” In fact, Plaintiffs’
state law claim made no such wishy-washy statement, but was to the contrary solidly
based upon the Plaintiffs’ undisputed, undivided beneficial interests in public land as
set forth in Paepcke v. Public Building Comm’n of Chicago, 263 N.E.2d 11, 18 (Ill.
1970). Against this incorrect characterization, the Seventh Circuit interpreted and
applied this Court’s precedent in Lujan v. National Wildlife Federation, 497 U.S. 871
(1990) to dismiss the state law claims for lack of subject matter jurisdiction.
10.

But thereafter, the Seventh Circuit held the Plaintiffs’ undivided

beneficial interest allowed the court to retain jurisdiction over Plaintiffs’ federal
claims, claiming that it did in fact allege a concrete and particularized interest, and
proceeded to affirm the district court’s summary judgment ruling on the merits of
Plaintiffs’ claims that the Defendants’ actions violated both the Due Process and

8

Takings Clauses of the Fifth Amendment. In so doing, the Seventh Circuit offered
two distinct characterizations of the Plaintiffs’ interest in its state and federal
claims. More specifically, it held that “the federal claims do allege a cognizable
injury: “the deprivation of a property right.” 971 F.3d at 736. In a footnote, the
Seventh Circuit added that “the mere fact that the alleged right is widely shared does
not defeat standing. Being deprived of one's property is a concrete and particularized
injury, even if the property is intangible or one's ownership is fractional.” Id. at 737,
n.4 (citing Spokeo Inc. v. Robins, 136 S.Ct. 1540, 1548-49 (2016) and Warth v. Seldin,
422 U.S. 490, 501 (1975)), for the proposition that an injury can be "distinct and
palpable ... even if it is an injury shared by a large class of other possible litigants"). It
then continued by saying “the alleged property right—a beneficial interest in a public
park—is highly unusual, and one might be immediately skeptical about whether it
exists.” Id. at 736. The Seventh Circuit further held that the Plaintiffs’ federal claims
were defective not only because of “the lack of a property interest,” but also because
their claim for injunctive relief “suggests that their complaint is that the Center does
not qualify as a ‘public use’ rather than that the City has failed to pay them ‘just
compensation.’” Id. at 737. It then held the Plaintiff’s claims failed on the merits by
noting that “even if the doctrine conferred a property interest on members of the
public, that interest would not necessarily qualify for protection under the
Constitution.” Id. at 737, n.5. As to the procedural due process claims, the Seventh
Circuit affirmed the district court providing that the “City enacted four separate

9

ordinances approving various aspects of the Center,” and that a “legislative
determination provides all the process that is due.” Id. at 738.
11.

The Seventh Circuit also affirmed, in largely conclusory fashion, the

district court’s denial of Plaintiffs’ Rule 60 motion. Id.
12.

A petition for rehearing was filed by the Plaintiffs on September 4, 2020,

which was subsequently denied on October 8, 2020 (which was then amended on
October 13, 2020).
REASONS FOR GRANTING THE WRIT
I.

REVIEW IS WARRANTED TO RESOLVE THE CONFLICT
CREATED BY THE SEVENTH CIRCUIT’S DECISION ON ARTICLE
III STANDING.
It is beyond controversy that under federal law, no party is entitled to bring

either a federal or state claim in federal court unless they can meet the requirements
for Article III standing, which require that the underlying claim involves a
“concrete” and “particularized” injury. In light of the Seventh Circuit’s application of
Lujan to dismiss Plaintiffs’ state law claims for lack of subject matter jurisdiction,
the Seventh Circuit’s finding that there was standing for the federal due process and
takings challenges runs afoul of well-established precedent from this Court.
Under Lujan, the focus of a standing inquiry must be on the party, and not the
claim, as a “‘fundamental aspect of standing’ is that it focuses primarily on the party
seeking to get his complaint before the federal court rather than ‘on the issues he
wishes to have adjudicated.’” U.S. v. Richardson, 418 U.S 166, 174 (1974) (citing

10

Flast v. Cohen, 392 U.S. 83, 99 (1968)). 1 Further, on this issue, the Supreme Court
maintains a strict separation between standing and the merits. Thus, in Richardson,
the plaintiff, as a member of the general public, could not obtain taxpayer standing
in order to require the Secretary of the Treasury to make a public accounting of the
receipts and expenditures of the Central Intelligence Agency. And once that point
was recognized, the Supreme Court reached its inevitable conclusion that these
actions must be dismissed.
We need not and do not reach the merits of the constitutional attack on
the statute; our inquiry into the ‘substantive issues’ is for the limited
purpose
indicated
above.
The
mere
recital
of
the
respondent’s claims and an examination of the statute under attack
demonstrate how far he falls short of the standing criteria of Flast and
how neatly he falls within the Frothingham [v. Mellon, 262 U.S. 447
(1923)] holding left undisturbed. . . .
Richardson, 418 U.S. at 174-75 (emphasis added).
The Seventh Circuit’s decision to retain jurisdiction over Plaintiffs’ federal law
claims, in light of its application of Lujan to dismiss Plaintiffs’ state law claims.
cannot be reconciled with similar authorities from this Court. Longstanding
principles established by this Court demand consistency in regards to issues of Article
III standing.

Here, the Seventh Circuit held that even though the Plaintiffs’

undivided beneficial interest in public lands did not allow it to establish standing on
the state law claims, that identical interest did allow it to dismiss their federal law

Flast created a narrow exception for establishment clause claims from the general
rule that denies taxpayer or citizen standing to enjoin government action on the
ground that it exceeds federal power, which was in turn limited in Valley Forge
Christian College v. Americans United for Separation of Church and State, Inc., 454
U.S. 464 (1982).
1

11

claims on the merits. See 971 F.3d 937, note 4. In so doing, the Seventh Circuit’s
decision departs from the basic standing rules under Article III, whose uniform
standard of a discrete and particular interest applies to federal and state law claims
alike. Thus, in the one breath the Seventh Circuit held that the Plaintiffs did allege
a property interest under state law, only in the next to state that the Plaintiffs
“lacked” any property interest.
This jarring disjunction on the standing issue was both unprecedented and
unjustified. The same undivided interest was in play on both the state law public
trust claim and the federal takings claim. The only difference is that under the public
trust doctrine, the remedy for the conversion of the undivided interest is a decision to
block the transfer if as yet unmade, or to require the return of the property plus
interest accrued or profit obtained (whichever is larger) if the transfer has in fact
been made. In contrast, under the Takings clause the transfer can go forward so long
as it is for a public use, but only if just compensation is made. Hence, the difference
between the two claims lies solely in the choice of remedies to vindicate the property
interest in question. These remedial differences, however, have nothing whatsoever
to do with the citizens’ standing to pursue such claims in both cases.
The Seventh Circuit sought to deny this simple proposition by erroneously
insisting that the Plaintiffs’ added a “twist” to their public trust claim, which it
mischaracterized as alleging “only that the government has failed to follow the law.”
But that thin description is inaccurate as well as far too vague to be of any use, for it
is equally consistent with any charge that the government has not followed any

12

number of constitutional, statutory or regulatory duties, all without making any
specific reference to the public trust doctrine. In fact, the complaint for breach of the
public trust doctrine rested on the explicit view that the duties of a public trustee and
a private trustee were identical, and that the duties owed by private trustees to
private beneficiaries paralleled those that public trustees owed to their
beneficiaries—loyalty, care, and candor.
Thus, although the Seventh Circuit’s interpretation of Lujan was limited only
to the state law claims, with respect to the federal takings and due process claims,
the Seventh Circuit applied a different standard:
Neither of these claims can get off the ground unless the plaintiffs prove
that they have a private property interest in Jackson Park. To
accomplish that, the plaintiffs return to the public trust doctrine and
add a twist: they argue that the public trust doctrine not only curtails a
state’s ability to transfer public land to a private party but also confers
a private property right on members of the public. Analogizing to the
law of trusts, the plaintiffs insist that they are “beneficiaries” of Jackson
Park, which the defendants hold in trust on the public’s behalf. And,
according to the plaintiffs, this “beneficial interest” is private property
that is protected by the United States Constitution. . . . To be sure, the
alleged property right—a beneficial interest in a public park—is highly
unusual, and one might be immediately skeptical about whether it
exists. But when the existence of a protected property interest is an
element of the claim, deciding whether the interest exists virtually
always goes to the merits rather than standing. Booker-El v.
Superintendent, Ind. State Prison, 668 F.3d 896, 900 (7th Cir. 2012).
Protect Our Parks, 971 F.3d at 736.
But this gloss is wholly inaccurate because the use of the term “beneficiary” to
describe a member of the public, was not invented by the Plaintiffs, but explicitly lay
at Paepcke’s core when the Illinois Supreme Court unambiguously wrote: “If the
‘public trust’ doctrine is to have any meaning or vitality at all, the members of the
13

public, at least taxpayers who are the beneficiaries of that trust, must have the right
and standing to enforce it.” Paepcke, 263 N.E.2d at 18 (emphasis added). Nor is this
use of the term beneficiary in any way exceptional. Throughout much of this nation’s
history the federal government has entered into treaties with various Indian tribes
that

call

for

the

creation

of

reservations

administered

by

the

federal

government. These statutory arrangements are explicitly called public trusts, and
the members of the various tribes are beneficiaries of those trusts. The law was
succinctly stated in U.S. v. Mitchell, 463 U.S. 206, 226 (1983): “[T]he existence of a
trust relationship between the United States and an Indian or Indian tribe includes
as a fundamental incident the right of an injured beneficiary to sue the trustee for
damages resulting from a breach of the trust.”
This standard and accurate use of the term “beneficiary” follows inexorably
from the evolution of the public trust doctrine. Thus, even before the ratification of
the United States Constitution, both courts and commentators noted the close
parallelism between public and private fiduciaries. John Locke wrote that the social
contract required “that the government had a fiduciary obligation to manage properly
what had been entrusted to it.” Robert G. Natelson, Legal Origins of the Necessary
and Proper Clause, 52, 53, in Gary Lawson et al., THE ORIGINS OF THE
NECESSARY AND PROPER CLAUSE (2010) (citing John Locke, THE SECOND
TREATISE OF GOVERNMENT: § 136 (1690) (emphasis added). Natelson then
identified six standard fiduciary duties, all of which were violated by the City in this
case: A. The Duty to Follow Instructions and Remain Within Authority; B. The Duties

14

of Loyalty and Good Faith; C. The Duty of Care; D. The Duty to Exercise Personal
Discretion; E. The Duty to Account, and F. The Duty of Impartiality. Natelson, Legal
Origins: 57-60. All of these are implicated in this case. Elsewhere Natelson has
written: “I have not been able to find a single public pronouncement in the
constitutional debate contending or implying that the comparison of government
officials and private fiduciaries was inapt. The fiduciary metaphor seems to rank just
below ‘liberty’ and ‘republicanism’ as an element of the ideology of the day.” Natelson,
The Constitution and the Public Trust, 52 BUFF. L. REV. 1077, 1086 (2004). Yet,
these passages, quoted in Plaintiffs’ Opening Brief (Appeal Docket No. 23 at 30-32)
were wholly ignored in the decision below.
Furthermore, the remaining case law relied upon by the Seventh Circuit fails
to support its jurisdictional decision in regards to the federal claims. For example,
the Seventh Circuit errs in relying in this context on Booker-El v. Superintendent,
Indiana State Prison, 668 F.3d 896 (7th Cir. 2012) for the proposition that “finding
the existence of a property goes to the merits and not to standing.” Protect Our Parks,
971 F.3d at 736.
Context counts for everything, and the cases cited by the Seventh Circuit were
all far removed from the public trust context. For instance, in Booker-El the plaintiff
alleged that, as a prisoner, he had under Indiana law a beneficial interest in a trust
fund dedicated to prisoners’ well-being, which had been appropriated for other
purposes by prison officials. In dealing with the standing issue, the court properly
held that the class of prisoners had a colorable claim to those proceeds. Since this

15

was a small and determinate class, at no point in its discussion of either standing or
the merits did the court discuss whether an undivided interest could support a citizen
or taxpayer claim under Article III. Instead, the court noted that “[h]ere, the main
issue for standing purposes is whether Booker-El has suffered an injury in-fact,” 669
F.3d at 899, which it properly did, since it was a virtual certainty that “Booker-El
would have a high probability of receiving benefits under a properly administered
recreation fund. Because Booker-El would face a substantial risk in losing benefits to
which he was entitled, misappropriation of these funds thus creates a substantial
risk of harm.” Id. The court then held that the applicable statute did not create a
property interest in the plaintiff, so, even assuming the accuracy of that standing
determination, the case was rightly dismissed on the merits after standing was
independently established.
Booker-El does not provide support for the Seventh Circuit’s decision or to
abandon this Court’s precedents as discussed supra. First, Illinois law has clearly
held that the Plaintiffs do have an undivided equitable interest in public lands, which
the Seventh Circuit’s application of Lujan has found insufficient to establish standing
under Article III. In contrast, Booker-El had standing because he was a member of
a particularized class of prisoners who had the specialized interest needed to
establish standing that citizens and taxpayers do not. Booker-El so clearly satisfied
the requirement of particularized injury that the case necessarily proceeded to the
merits stage, where recovery was denied because the plaintiff’s colorable interest in
the prison funds may have established standing, but it did not as a matter of Indiana

16

law create any substantive property interest. Put differently, Booker-El had Article
III standing but no property interest. In contrast, the Plaintiffs here have a property
interest but no Article III standing based on the record before the Seventh Circuit
and its interpretation regarding the state law public claims; their property interest
is protected under both the Takings and Due Process clauses as applied to the states,
but at least based upon the pleading before the Seventh Circuit, did not present
standing in federal district court. The Seventh Circuit erred when it inconsistently
and under a separate standard maintained jurisdiction over the federal claims.
The Seventh Circuit’s opinion is further muddied by its inaccurate rendition of
Spokeo, Inc. v. Robins, 136 S. Ct. 1540 (2016) and Warth v. Seldin, 422 U.S. 490
(1975), neither of which involved either taxpayer or citizen suits. For example, in
Spokeo, plaintiffs brought a class action under the Fair Credit Reporting Act of 1970,
claiming Spokeo generated false and misleading profiles of individual prospective
employees. The Supreme Court held that the Ninth Circuit had not engaged in the
necessary two-part analysis under which “the injury-in-fact requirement requires a
plaintiff to allege an injury that is both “concrete and particularized” as called for by
Friends of the Earth, Inc. v. Laidlaw Environmental Services (TOC), Inc., 528 U.S.
167, 180-81 (2000) (emphasis added [by Supreme Court]). See Protect Our Parks, 971
F.3d 731 n.1. But even though any question of taxpayer or citizen standing was
absent in Spokeo, the Seventh Circuit cited the case for the following proposition (Id.
at 736 n.4): “The mere fact that the alleged right is widely shared does not defeat
standing. Being deprived of one’s property is a concrete and particularized injury,

17

even if the property is intangible or one’s ownership is fractional.” See Spokeo, 136 S.
Ct. at 1548-49. However, Spokeo’s reference to an interest that is “widely shared”
only refers to the undisputed proposition that individual plaintiffs in a class action
have standing to bring their respective claims for their individual losses, regardless
of their size. It does not support the Seventh Circuit’s inconsistent application of its
determination that the state law claim of an undivided interest in public lands does
not confer standing under Article III but does so under the Plaintiffs’ federal claims.
II.

IF THE PLAINTIFFS HAVE STANDING TO ASSERT THEIR
FEDERAL CLAIMS UNDER ARTICLE III, THEN THE SEVENTH
CIRCUIT ERRED IN HOLDING THAT THE LOSS OF THESE
INTERESTS DID NOT CREATE EITHER A TAKINGS OR A DUE
PROCESS VIOLATION.
In order to invoke either the Takings or the Due Process Clause on their behalf,

the Plaintiffs must show that they have been deprived of a property interest that they
have in public lands. In light of the unambiguous decision in Paepcke, it is clear that
under Illinois law, the Plaintiffs’ undivided interest in public trust lands triggers the
property

requirement

for

both

the

Takings

and

the

Due

Process

claims. Furthermore, this Court held that these takings violations are remediable
under 42 U.S.C. § 1983. See Knick v. Township of Scott, Pennsylvania, 139 S. Ct.
2162, 2167 (2019) (“The Civil Rights Act of 1871, after all, guarantees ‘a federal forum
for claims of unconstitutional treatment at the hands of state officials….’”); Mathews
v. Eldridge, 424 U.S. 319 (1976) (statutory property interests protected by Fifth
Amendment); Patsy v. Bd. Of Regents of State of Florida, 457 U.S. 496, 501 (1982).
Accordingly, it is appropriate for any court to evaluate those claims on their merits.

18

The Seventh Circuit ignored these precedents as it equivocated on public trust
claims as seen by the standing discussion above, leading it to erroneously affirm the
trial court’s summary judgment decision against Plaintiffs’ federal claims. Thus, at
one point, the Seventh Circuit offers a false contrast between the Plaintiffs’ federal
and state claims when it writes: “Unlike the state claims, the federal claims do allege
a cognizable injury: the deprivation of a property right. To be sure, the alleged
property right—a beneficial interest in a public park—is highly unusual, and one
might be immediately skeptical about whether it exists.” But later, the Seventh
Circuit expresses doubt that there is really any property right at all when it writes
that “[t]he lack of a property interest is the most fundamental defect in both of the
plaintiffs' federal claims.”
But there is no reason to be either skeptical about the Plaintiffs’ property
rights claims or to deny their existence.

As noted earlier, the use of the term

“beneficiary” to describe the interest of a Chicago resident comports with standard
usage on this question. It is standard logic under modern constitutional law,
moreover, that the characterization of property rights claims is a matter that is in
the first instance left to state statutory and common law. Thus, in Board of Regents
of State Colleges v. Roth, 408 U.S. 564, 577 (1972), this Court laid down the rule that
“To have a property interest in a benefit, a person clearly must have more than an
abstract need or desire” and “more than a unilateral expectation of it. He must,
instead, have a legitimate claim of entitlement to it.” Id. at 577. In addition,
entitlements are, “‘of course, . . . not created by the Constitution. Rather, they are

19

created and their dimensions are defined by existing rules or understandings that
stem from an independent source such as state law.’” Paul v. Davis, 424 U.S. 693, 709
(1976).
It is perfectly clear that the Plaintiffs’ undivided interest in public property is
not just an abstract need or desire. Rather it is an equitable interest in public lands
that may be protected by either injunctive relief, damages or some combination
thereof. It follows necessarily that the Seventh Circuit improperly downgraded the
Plaintiff’s interest in these public trust lands when it wrote: “Although the plaintiffs
wish it were otherwise, the Illinois cases make clear that the public trust doctrine
functions as a restraint on government action, not as an affirmative grant of property
rights.” 971 F.3d at 737. Quite simply, the one reason why the public trust doctrine
functions as a restraint on government action is that the plaintiffs are beneficiaries
who have an explicit right to enforce the public trust obligations under Illinois law
pursuant to Paepcke.
The Seventh Circuit then makes a number of incorrect arguments to denigrate
the importance of these property rights which then manifest themselves into a
conclusory—but erroneous—affirmance of the district court grant of summary
judgment on Plaintiffs’ federal claims. For instance, the Seventh Circuit
misconstrued the breadth of the public trust doctrine contained in Paepcke. In
particular, the Seventh Circuit added unnecessary confusion into the law when it
failed to articulate the correct relationship between legal and equitable claims that
can arguably arise out of any given transaction. In Paepcke, the plaintiff held

20

property that was adjacent to Washington Park, four acres of which the City wished
to convert to a public school. As a neighbor, the plaintiff had no chance to stop the
construction of that school on the grounds that it constituted a common law nuisance,
that is, an operation that the Restatement defines as “a nontrespassory invasion of
another’s interest in the private use and enjoyment of land.” Restatement (Second) of
Torts §821D. These nuisances typically involve invasions by noises, smells,
vibrations, or filth, or other activities “injurious to health.” See, e.g. California Civil
Code § 3479. An ordinary public school built on non-park land would not be a
nuisance to its neighbors, and so too one that is built on park land.
Because the plaintiff in Paepcke understood that she could not succeed on a
nuisance claim, she argued that the transfer of four acres of parkland from one public
use to another was a violation of the public trust doctrine. That claim could be
brought by any resident of the city regardless of where he or she lived. The Seventh
Circuit misapprehended the legal situation when it asserted this nonsequitur by
insisting that “[i]f adjacent landowners have no protected interest in public land, then
the plaintiffs don't have one either.” 971 F.3d at 737.

But Paepcke only held that

there was no nuisance claim at law in her capacity as neighbor. It then held that
under the public trust doctrine the plaintiff could seek to vindicate her rights to stop
this transaction: “If the ‘public trust’ doctrine is to have any meaning or vitality at
all, the members of the public, at least taxpayers who are the beneficiaries of that
trust, must have the right and standing to enforce it.” Paepcke, 263 N.E.2d at 18.

21

The Illinois Supreme Court then considered that claim on the merits and held
that the transfer of public park land to another public use did not constitute a
violation of the public trust violation. In so doing, it had to make peace with the notion
that the original terms of the 1869 grant could be read as imposing a complete ban
on any and all construction on public trust lands. But it then invoked a long line of
cases from multiple jurisdictions that indicated that some shifts in public use were
permissible notwithstanding the literal language of the grant. Id. at 16-18.
By the same token, however, the terms of that grant did impose key limitations
on the kinds of changes that could be made, which were typically for narrow
government purposes such as the construction of a firehouse or railroad spur on
public lands, all of which are wholly distinct from the outright transfer from the
Defendants via the “use” agreement of a huge chunk of Jackson Park to the
Foundation. In addition, Paepcke left undisturbed the earlier decision in South Park
Commissioners v. Montgomery Ward & Co., 93 N.E. 910 (1910), where the Illinois
Supreme Court held that the 1869 grant precluded Illinois from the exercise of its
eminent domain power to allow for the construction of new buildings in Grant Park.
At that time, the Illinois Supreme Court observed that “the settled law of this state
is that if the owner of private property offers to donate it to the public for a specified
public use, and the offer is accepted, and the property devoted to such use, the state
cannot change the use and apply the property to some other use inconsistent with the
dedication.” Id at 913.

22

Elsewhere in its opinion, the Seventh Circuit suggested that the decision to
respect the holding of Roth was in some sense discretionary when it cited to this
Court’s decision in Town of Castle Rock, Colo. v. Gonzales, 545 U.S. 748, 757
(2005). To that end, the Seventh Circuit wrote in a cryptic footnote that “even if the
[pubic trust] doctrine conferred a property interest on members of the public, that
interest would not necessarily qualify for protection under the Constitution,” citing
to Gonzales and for this proposition: “Although the underlying substantive interest
is created by ‘an independent source such as state law,’ federal constitutional law
determines whether that interest rises to the level of a ‘legitimate claim of
entitlement’ protected by the Due Process Clause.” (emphasis in the original). Protect
Our Parks, 971 F.3d 737 n.5.
That quotation must, however, be set in proper context. In Gonzales the
Supreme Court held that “a state-law restraining order” did not create a
constitutional property interest under the Due Process Clause when state authorities
recklessly failed to respond to her request for assistance after her husband had
violated the order. In holding that this novel claim was not protected under the Due
Process Clause, the Court explicitly affirmed the general rule in prior case law, by
explicitly distinguishing both Roth and Paul and affirming their general validity. Id.
at 757.
It is abundantly clear that the beneficial interest in a trust, as defined under
state property law, is as protected under the constitution as are ordinary contract
rights. There is no exotic issue that requires a further inquiry as to whether a novel

23

claim, such as the right to a protective order, creates a property interest, for that
question is conclusively and authoritatively resolved in Paepcke in line with the
overwhelming weight of authority.
Once the property issue is properly resolved, the failures of the Seventh Circuit
to follow the precedents of this Court are evident. The fair value of the property
transferred to the Foundation by the sham 99-year “use” agreement over nearly 20
acres of prime parkland in Jackson Park was far greater than $10. The test for just
compensation is strict: “There can, in view of the combination of those two words [just
and compensation], be no doubt that the compensation must be a full and perfect
equivalent for the property taken.” Monongahela Navigation Co. v. United States, 148
U.S. 312, 326 (1893). That requirement of a “full and perfect equivalent” is not met
here. And the rapid-fire number of official hearings for a project of this magnitude
and complexity totaling four (two occurring in May 2018 (District Court Docket No.
124, ¶¶ 15-18)) and the others in October 2018 (Appeal Docket No. 24 at A.149-51)
(noting a committee meeting on October 11, 2018 and City Council passage on
October 31, 2018) offered no meaningful opportunity to challenge a predetermined
result and does not count as the provision of due process.
In addition, the record makes it clear that the creation of any private center,
even for an ex-President, does not qualify as a public use. For example, in Lake
Michigan Federation v. U.S. Army Corps of Engineers, 742 F. Supp. 441, 445 (N.D.
Ill. 1990), the district court held that the public trust doctrine barred the transfer of
some portion of the Lake Michigan lakebed to Loyola University on the ground that

24

the transaction violated the public trust doctrine. The facts of that case were far more
favorable to Loyola, which covered the costs of its operation, created new usable
public spaces, and contemplated no construction on the land reclaimed for private
use. Nonetheless, in holding that the public trust doctrine under Illinois law blocked
this transaction, the district court distilled three propositions that doom the creation
of OPC on the ground that it creates an impermissible private use of public trust
lands:
First, courts should be critical of attempts by the state to surrender
valuable public resources to a private entity. Second, the public trust is
violated when the primary purpose of a legislative grant is to benefit a
private interest. Finally, any attempt by the state to relinquish its
power over a public resource should be invalidated under the
doctrine. Illinois Central Railroad v. Illinois.
Id. at 445 (citations omitted).
Hence it follows that if an asserted transfer of a property interest took place,
it failed both the just compensation and the public use requirements of the Takings
Clause as applied to the states through the Fourteenth Amendment. The Seventh
Circuit erred in holding otherwise, contrary the settled law and sound policy.

25

CONCLUSION
For all the foregoing reasons, Petitioners respectfully request that the
Supreme Court grant review of this matter.
Respectfully submitted,
Richard Epstein
16 Thomas Place
Norwalk CT 06853
773-450-4476
raepstein43@gmail.com
Michael Rachlis
Counsel of Record
RACHLIS DUFF & PEEL LLC
542 South Dearborn, Suite 900
Chicago, Illinois 60605
(312) 733-3950
mrachlis@rdaplaw.net
Attorneys for Petitioners

26

APPENDIX A

Case: 19-2308

Document: 86

Filed: 08/21/2020

Pages: 23

In the

United States Court of Appeals
For the Seventh Circuit
____________________
Nos. 19-2308 & 19-3333
PROTECT OUR PARKS, INC.,
and MARIA VALENCIA,
Plaintiffs-Appellants,
v.
CHICAGO PARK DISTRICT
and CITY OF CHICAGO,
Defendants-Appellees.
____________________
Appeals from the United States District Court for the
Northern District of Illinois, Eastern Division.
No. 1:18-cv-3424 — John Robert Blakey, Judge.

____________________
ARGUED MAY 21, 2020 — DECIDED AUGUST 21, 2020
____________________
Before MANION, BARRETT, and BRENNAN, Circuit Judges.
BARRETT, Circuit Judge. This case is about the plaintiffs’
quest to halt construction of the Obama Presidential Center in
Chicago’s Jackson Park. First developed as the site for the Chicago World’s Fair in 1893, Jackson Park has a storied place in
Chicago history, and as public land, it must remain dedicated
to a public purpose. The City made the judgment that hosting

Case: 19-2308

Document: 86

Filed: 08/21/2020

2

Pages: 23

Nos. 19-2308 & 19-3333

a center devoted to the achievements of America’s first African-American President, who has a longstanding connection
to Chicago, fit that bill. Vehemently disagreeing, the plaintiffs
sued the City of Chicago and the Chicago Park District to stop
the project. They brought a host of federal and state claims, all
asserting variants of the theory that the Obama Presidential
Center does not serve the public interest but rather the private
interest of its sponsor, the Barack Obama Foundation.
The district court granted summary judgment to the defendants across the board, and the plaintiffs appeal. We affirm
the district court’s judgment as to the federal claims, but we
hold that it should have dismissed the state claims for lack of
jurisdiction. Federal courts are only permitted to adjudicate
claims that have allegedly caused the plaintiff a concrete injury; a plaintiff cannot come to federal court simply to air a
generalized policy grievance. The federal claims allege a concrete injury, albeit one that, as it turns out, the law does not
recognize. The state claims, however, allege only policy disagreements with Chicago and the Park District, so neither we
nor the district court has jurisdiction to decide them.
I.
In 2014, the Barack Obama Foundation began a nationwide search for the future location of the presidential library
for the 44th President. Eventually, the Foundation selected
Jackson Park on Chicago’s South Side to house the Obama
Presidential Center. The City of Chicago acquired the 19.3
acres necessary from the Chicago Park District, enacted the
ordinances required to approve the construction of the Center, and entered into a use agreement with the Obama Foundation to govern the terms of the Center’s construction, ownership, and operation. The Jackson Park location, the

Case: 19-2308

Document: 86

Nos. 19-2308 & 19-3333

Filed: 08/21/2020

Pages: 23

3

Foundation believed, would be best situated to “attract visitors on a national and global level” and would “bring significant long term benefits to the South Side.”
But construction of the Center will require the removal of
multiple mature trees, as well as the closure and diversion of
roadways. It will also require the City to shoulder a number
of big-ticket expenses. Unhappy with the environmental and
financial impact of the project, the group Protect Our Parks
and several individual Chicago residents sued both the City
and the Park District to halt construction of the Center.
The plaintiffs raised four claims that are relevant here.
First and foremost, they claimed that the defendants violated
Illinois’s public trust doctrine. Briefly stated, the public trust
doctrine limits the government’s ability to transfer control or
ownership of public lands to private parties. The plaintiffs argued that the City violated the doctrine by transferring control of public parkland to the Obama Foundation for a purely
private purpose.
Next, the plaintiffs claimed that under Illinois law, the defendants acted ultra vires—in layman’s terms, beyond their
legal authority—in entering the use agreement with the Foundation. Specifically, the plaintiffs maintained that the use
agreement between the City and the Foundation violates Illinois law because, among other things, it delegates decisionmaking authority to the Foundation, grants the Foundation
an illegal lease in all but name, 70 ILCS 1290/1, exchanges the
property for less than equal value, 70 ILCS 1205/10-7(b), and
fails to require the City to “use, occupy, or improve” the land
transferred to it from the Park District, 50 ILCS 605/2.

Case: 19-2308

Document: 86

Filed: 08/21/2020

4

Pages: 23

Nos. 19-2308 & 19-3333

The plaintiffs’ final two claims arise under federal law.
They argued that, by altering the use of Jackson Park and
handing over control to the Foundation, the defendants took
the plaintiffs’ property for a private purpose in violation of
the Takings Clause of the Fifth Amendment. In the same vein,
the plaintiffs asserted that the defendants deprived them of
property in a process so lacking in procedural safeguards that
it amounted to a rubberstamp of the Foundation’s decision
and violated their rights under the Due Process Clause of the
Fourteenth Amendment.
The district court granted summary judgment to the City
and the Park District on all four of these claims, and the plaintiﬀs appealed from that decision. While the ﬁrst appeal was
pending, the federal government issued a provisional report
about the potential eﬀects of the project, including its eﬀects
on the environment. The plaintiﬀs then moved for relief from
the judgment under Federal Rule of Civil Procedure 60(b), alleging that the report was new, material evidence that undermined the district court’s decision. The district court denied
the motion, and the plaintiﬀs appealed again. We consolidated the two appeals.
II.
We’ll start with the plaintiﬀs’ appeal from the district
court’s grant of summary judgment on the state law claims.
Before we can address the merits, though, we have “an obligation to assure ourselves” of our jurisdiction. DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 340 (2006) (citation omitted).
And jurisdiction—speciﬁcally, the plaintiﬀs’ standing to
bring their state claims in federal court—proves to be a problem here. We asked the parties to address this issue in supplemental brieﬁng, and while both the plaintiﬀs and the

Case: 19-2308

Document: 86

Nos. 19-2308 & 19-3333

Filed: 08/21/2020

Pages: 23

5

defendants assure us that the plaintiﬀs have standing, we
aren’t convinced.
The requirement of standing “is an essential and unchanging part of the case-or-controversy requirement of Article III.”
Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 (1992). Its elements
are familiar: “the plaintiﬀ must allege an injury in fact that is
traceable to the defendant’s conduct and redressable by a favorable judicial decision.” Casillas v. Madison Ave. Assocs., Inc.,
926 F.3d 329, 333 (7th Cir. 2019). The ﬁrst requirement—injury
in fact—is “the ‘[f]irst and foremost’ of standing’s three elements.” Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016) (alteration in original) (citation omitted). It requires a plaintiﬀ to
demonstrate that she “suﬀered ‘an invasion of a legally protected interest’ that is ‘concrete and particularized’ and ‘actual
or imminent, not conjectural or hypothetical.’” Id. at 1548
(quoting Lujan, 504 U.S. at 560). The parties insist that the
plaintiﬀs have adequately alleged that they will suﬀer an imminent, concrete injury as a result of the defendants’ alleged
violations of Illinois law.
To understand the arguments that the parties make to support this point, one must ﬁrst understand the public trust doctrine, which is the basis of the plaintiﬀs’ primary state law
claim. Here’s the nutshell version: the public trust doctrine,
established in American law by Illinois Central Railroad Co. v.
Illinois, prohibits a state from alienating its interest in public
lands submerged beneath navigable waterways to a private
party for private purposes. 146 U.S. 387, 455–56 (1892). Instead, a state may only alienate publicly owned submerged
land to a private party if the property will be “used in promoting the interests of the public” or “can be disposed of

Case: 19-2308

6

Document: 86

Filed: 08/21/2020

Pages: 23

Nos. 19-2308 & 19-3333

without any substantial impairment of the public interest in
the lands and waters remaining.” Id. at 453.
In the time since Illinois Central, some states, including Illinois, have applied the doctrine to land other than navigable
waterways—which is important here because Jackson Park is
not a navigable waterway. In fact, despite the doctrine’s underwater origins, most of the recent Illinois cases deal with
dry land. See Friends of the Parks v. Chi. Park Dist., 786 N.E.2d
161, 169–70 (Ill. 2003) (applying the doctrine to Chicago’s Soldier Field, built on parkland reclaimed from Lake Michigan);
Paepcke v. Pub. Bldg. Comm’n of Chi., 263 N.E.2d 11, 15–16 (Ill.
1970) (applying the doctrine to Chicago’s Washington and
Douglas parks); Fairbank v. Stratton, 152 N.E.2d 569, 575 (Ill.
1958) (applying the doctrine to the reclaimed land that now
houses Chicago’s McCormick Place convention center). Once
such land has been dedicated to a public purpose, the Illinois
Supreme Court has explained, the government “hold[s] the
properties in trust for the uses and purposes specified and for
the benefit of the public.” Paepcke, 263 N.E.2d at 15. Dedication to a public purpose isn’t an “irrevocable commitment[],”
id. at 16, and judicial review of any reallocation is deferential,
particularly if the land in question has never been submerged.
Nonetheless, the doctrine requires courts to ensure that the
legislature has made a “sufficient manifestation of legislative
intent to permit the diversion and reallocation” to a more restrictive, less public use. Id. at 18.
In this case, the plaintiffs argue that the defendants’ use
agreement with the Obama Foundation violates the public
trust doctrine because it transfers control of public land in
Jackson Park to the private Foundation for a purely private
purpose. And, drawing an analogy to private trust law, they

Case: 19-2308

Document: 86

Filed: 08/21/2020

Nos. 19-2308 & 19-3333

Pages: 23

7

argue that the transaction could not have been in the public
interest because it was inconsistent with the defendants’ “fiduciary duties.” In their telling, the public trust calls for
heightened scrutiny of a transaction if it was “tainted by selfdealing, favoritism or conflicts of interest.” They argue that
the use agreement here fits that description for many reasons,
including that the City negotiated with the Obama Foundation under the leadership of Mayor Rahm Emmanuel, who, as
President Obama’s former chief of staff, was eager to give the
Foundation a sweetheart deal.
The parties oﬀer three reasons why the plaintiﬀs have adequately alleged an injury in fact stemming from these alleged
violations of state law. (While their focus is on the public trust
doctrine, their arguments also apply to the plaintiﬀs’ allegation that the City and Park District violated the statutes regulating the management of public land.) First, the plaintiﬀs assert that they have standing in federal court because their injury would be recognized in Illinois state court. Second, the
plaintiﬀs suggest that they have standing to stop injury to
Jackson Park. And ﬁnally, the defendants—though notably,
not the plaintiﬀs themselves—argue that the plaintiﬀs have
standing as municipal taxpayers. We address each argument
in turn.
A.
Illinois courts have long recognized the public’s injury
from a violation of the public trust doctrine as suﬃcient to
create a justiciable controversy. See Paepcke, 263 N.E.2d at 18.
Thus, the plaintiﬀs insist, they have suﬀered a suﬃcient injury in fact to establish their standing in federal court. In other
words, the plaintiﬀs claim that the existence of a justiciable

Case: 19-2308

8

Document: 86

Filed: 08/21/2020

Pages: 23

Nos. 19-2308 & 19-3333

controversy in state court demonstrates that there is one in
federal court too.
The plaintiﬀs misapprehend the doctrine of standing,
which is a corollary of Article III’s limitation of the “judicial
power” to the resolution of “cases” and “controversies.” U.S.
CONST. art. III, § 2, cl. 1 (capitalization omitted). The requirement limits the power of federal courts and is a matter of federal
law. It does not turn on state law, which obviously cannot alter the scope of the federal judicial power. See Phillips Petroleum Co. v. Shutts, 472 U.S. 797, 804 (1985) (asserting that
standing in federal court “does not depend on [a] party’s …
standing in state court”). At the same time, federal law does
not dictate the scope of state judicial power. Article III does
not apply to the states, so “state courts are not bound by the
limitations of a case or controversy or other federal rules of
justiciability.” ASARCO, Inc. v. Kadish, 490 U.S. 605, 617
(1989). Unencumbered by these limitations, the states can empower their courts to hear cases that federal courts cannot—
and many states have done just that. See, e.g., F. Andrew
Hessick, Cases, Controversies, and Diversity, 109 NW. U. L. REV.
57, 65–75 (2014) (cataloguing the variations between federal
justiciability doctrines and those in state courts); JEFFREY S.
SUTTON ET AL., STATE CONSTITUTIONAL LAW: THE MODERN
EXPERIENCE 790–816 (3d ed. 2020) (excerpting examples from
state court decisions).
This case presents a prime example. The Illinois Supreme
Court has speciﬁcally held that a plaintiﬀ can bring suit under
the public trust doctrine without showing that she “will suﬀer
special damage, diﬀerent in degree and kind from that suffered by the public at large.” Paepcke, 263 N.E.2d at 18; see id.
(overruling the prior, contrary rule). Instead, the Illinois

Case: 19-2308

Document: 86

Nos. 19-2308 & 19-3333

Filed: 08/21/2020

Pages: 23

9

Supreme Court said, “If the ‘public trust’ doctrine is to have
any meaning or vitality at all, the members of the public, at
least taxpayers who are the beneﬁciaries of [the public] trust,
must have the right and standing to enforce it.” Id. In other
words, Illinois has adopted precisely the opposite of the injuryin-fact requirement of federal standing, which demands that
every plaintiﬀ prove that he “seek[s] relief for an injury that
aﬀects him in a ‘personal and individual way.’” Hollingsworth
v. Perry, 570 U.S. 693, 705 (2013) (citation omitted); see also
Thole v. U.S. Bank N.A., 140 S. Ct. 1615, 1621 (2020) (“[T]he ‘assumption that if respondents have no standing to sue, no one
would have standing, is not a reason to ﬁnd standing.’” (quoting Valley Forge Christian Coll. v. Ams. United for Separation of
Church & State, Inc., 454 U.S. 464, 489 (1982))).
While Illinois is free to conclude that “plaintiﬀs’ rights as
residents in a trust of public lands” may be “enforced without
question,” Paepcke, 263 N.E.2d at 18, Article III doesn’t give us
the same leeway. To sue in federal court, a plaintiﬀ must also
demonstrate an injury to her “separate concrete interest.”1
Lujan, 504 U.S. at 572. The plaintiﬀs have failed to do that here:
their public trust and ultra vires claims each allege only that
the government has failed to follow the law. All residents of
1

We note that the plaintiffs did not allege the kind of concrete injury
that many plaintiffs bringing environmental challenges do: “that they use
the affected area and are persons ‘for whom the aesthetic and recreational
values of the area will be lessened’ by the challenged activity.” Friends of
the Earth, Inc. v. Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S. 167, 183 (2000)
(quoting Sierra Club v. Morton, 405 U.S. 727, 735 (1972)). That kind of injury
is cognizable under Article III. Id.; see also Lujan, 504 U.S. at 562–63 (“Of
course, the desire to use or observe an animal species, even for purely esthetic purposes, is undeniably a cognizable interest for purposes of standing.”). The plaintiffs, however, made no such claim.

Case: 19-2308

Document: 86

Filed: 08/21/2020

10

Pages: 23

Nos. 19-2308 & 19-3333

Chicago—indeed, advocates for good government everywhere—desire that the government follow the law. But recognizing standing based on such an “undiﬀerentiated” injury is
fundamentally “inconsistent” with the exercise of the judicial
power. Id. at 575; see also Hollingsworth, 133 S. Ct. at 2662 (“[A]
‘generalized grievance,’ no matter how sincere, is insuﬃcient
to confer standing.”); Valley Forge Christian Coll., 454 U.S. at
482–83. For Article III purposes, the plaintiﬀs are nothing
more than “concerned bystanders,” and concerned bystanders are not entitled to press their claims in federal court.
United States v. Students Challenging Regulatory Agency Procedures (SCRAP), 412 U.S. 669, 687 (1973). The fact that Illinois
would permit them to do so in state court is irrelevant to the
Article III inquiry.
B.
The plaintiﬀs have an alternative argument: they argue
that they have standing because Jackson Park will suﬀer an
injury in fact as a result of the defendants’ violations of state
law. On this theory, the City’s plan to turn part of Jackson
Park into the Obama Presidential Center will cause irreparable “damage to Jackson Park” that is “fairly traceable to the
construction project.” The alleged damage includes, for example, departing from Frederick Law Olmsted’s original plan for
the landscape of Jackson Park and jeopardizing the Park’s listing on the National Register of Historic Places.
But this argument fares no better than the last. Even if the
Obama Presidential Center will damage Jackson Park, “[t]he
relevant showing for purposes of Article III standing … is not
injury to the environment but injury to the plaintiﬀ.” Friends
of the Earth, Inc. v. Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S.
167, 181 (2000). The plaintiﬀs can’t repackage an injury to the

Case: 19-2308

Document: 86

Filed: 08/21/2020

Nos. 19-2308 & 19-3333

Pages: 23

11

park as an injury to themselves. Nor can they sue on behalf of
the park, which is what they seem to be trying to do. In limited circumstances, the doctrine of “third-party standing”
permits a plaintiﬀ to sue to vindicate the rights of someone
else. See, e.g., Kowalski v. Tesmer, 543 U.S. 125, 130 (2004) (noting that the “Court has allowed standing to litigate the rights
of third parties when enforcement of the challenged restriction against the litigant would result indirectly in the violation of third parties’ rights” (emphasis and citation omitted)). Here, though, the plaintiﬀs are trying to raise the rights
of something else. Among the many problems with this maneuver is the fact that Jackson Park has no rights of its own to
assert. Cf. ECUADOR CONST. tit. II, ch. 7, art. 71 (granting rights
to nature).
C.
Finally, the defendants—but, notably, not the plaintiﬀs—
argue that the plaintiﬀs have standing as municipal taxpayers
of the City of Chicago. 2 The defendants took precisely the
2 The defendants vaguely argue that “among the plaintiffs

… are Chicago taxpayers.” We take their argument to refer to plaintiff Maria Valencia, the only individual plaintiff remaining in the case. The record reflects
that Valencia is a resident and taxpayer of the City of Chicago. But the
record is silent as to Protect Our Parks—though as a nonprofit group, it
presumably is not a municipal taxpayer. As an organization, then, Protect
Our Parks would only have standing to the extent that “its members
would otherwise have standing to sue in their own right.” Friends of the
Earth, 528 U.S. at 181. But the record is silent, too, on the group’s membership. We thus proceed on the understanding that the municipal taxpayer
standing argument hinges on Valencia. See Chi. Joe’s Tea Room, LLC v. Village of Broadview, 894 F.3d 807, 813 (7th Cir. 2018) (noting that Article III is
satisfied if “there is at least one individual plaintiff who has demonstrated
standing” (citation omitted)).

Case: 19-2308

12

Document: 86

Filed: 08/21/2020

Pages: 23

Nos. 19-2308 & 19-3333

opposite position in the district court, where they raised the
plaintiﬀs’ lack of municipal taxpayer standing as one reason
why the district court should dismiss the state-law claims on
jurisdictional grounds. In response, the plaintiﬀs asserted that
they had municipal taxpayer standing, and the district court
accepted that argument.
Things have changed on appeal. The plaintiﬀs’ supplemental brief doesn’t even mention municipal taxpayer standing, while the defendants now champion it as the basis for jurisdiction. It is not obvious why the plaintiﬀs have failed to
embrace a district court decision in their favor, but the reason
for the defendants’ change of heart is easy to see—having secured a judgment on the merits, they’d prefer an aﬃrmance
to a dismissal. Still, the defendants were right the ﬁrst time
around: municipal taxpayer standing does not justify federal
jurisdiction over these state-law claims.
Municipal taxpayer standing is a bit of a relic in the modern landscape of standing. It derives from Crampton v. Zabriskie, in which the Supreme Court held that “there is at this day
no serious question” about “the right of resident tax-payers to
invoke the interposition of a court of equity to prevent an illegal disposition of the moneys of the county or the illegal creation of a debt which they in common with other propertyholders of the county may otherwise be compelled to pay.”
101 U.S. 601, 609 (1879). The Court cited Crampton approvingly a half-century later in Frothingham v. Mellon, which rejected the proposition that standing to sue the federal government could be based merely on a plaintiﬀ’s status as a federal
taxpayer. 262 U.S. 447, 487–88 (1923). En route to that holding,
the Court distinguished between municipal taxpayers, who
have a “peculiar relation … to the [municipal] corporation,

Case: 19-2308

Document: 86

Nos. 19-2308 & 19-3333

Filed: 08/21/2020

Pages: 23

13

which is not without some resemblance to that subsisting between stockholder and private corporation,” and federal taxpayers, any one of whom shares her “interest in the moneys
of the treasury … with millions of others.” Id. at 487. It thus
left undisturbed “the rule, frequently stated by this court, that
resident taxpayers may sue to enjoin an illegal use of the moneys of a municipal corporation.” Id. at 486.
The rule remains undisturbed, but it has grown increasingly anomalous. Smith v. Jeﬀerson Cty. Bd. of Sch. Comm’rs, 641
F.3d 197, 221–23 (6th Cir. 2011) (en banc) (Sutton, J., concurring) (“While the municipal-taxpayer standing doctrine has
stood still, … standing principles have moved on.”). Although the Court has not actually relied on municipal taxpayer standing in decades, it has continued to assume the
doctrine’s validity. See, e.g., DaimlerChrysler, 547 U.S. at 349.
Meanwhile, it has developed a substantial body of law vigorously enforcing the principle that injuries cognizable under
Article III cannot be “generalized,” Lujan, 504 U.S. at 575–76,
“undiﬀerentiated,” United States v. Richardson, 418 U.S. 166,
177 (1974), or insuﬃciently “particularized,” Spokeo, 136 S. Ct.
at 1548. It has also repeatedly emphasized that neither state
nor federal taxpayers can satisfy this standard in a suit against
the government for the illegal expenditure of taxpayer funds. 3
3

Since Frothingham, the Court has only acknowledged standing for
federal taxpayers in one substantive area—Establishment Clause cases.
See Flast v. Cohen, 392 U.S. 83, 102–04 (1968). Even then, it has been reluctant to find Flast’s requirements satisfied. See, e.g., Hein v. Freedom from Religion Found., Inc., 551 U.S. 587, 593 (2007) (plurality opinion) (denying federal taxpayer standing in an Establishment Clause challenge because the
allegedly illegal expenditures were made from general executive branch
appropriations rather than specific congressional appropriations); Valley

Case: 19-2308

14

Document: 86

Filed: 08/21/2020

Pages: 23

Nos. 19-2308 & 19-3333

See DaimlerChrysler, 547 U.S. at 345. Yet it has never explained
why municipal taxpayers are diﬀerently situated—and it
might ﬁnd that diﬃcult to do. Frothingham suggested that the
city or county resident has a “peculiar relationship” with her
local government, while the state or federal citizen has only a
“minute” or “remote” tie to hers. 262 U.S. at 487. Maybe that’s
true in Grover’s Corners. See THORNTON WILDER, OUR TOWN
(1938). But why is a suit brought by one of Chicago’s 2.6 million residents any more particularized than a suit by any of
the 579,000 citizens of Wyoming? QuickFacts, U.S. CENSUS
BUREAU, https://www.census.gov/quickfacts/fact/table/WY,c
hicagocityillinois/PST045219 (last visited Aug. 20, 2020).
There’s reason to think that the Court has recognized this
reality—at least one opinion has hinted that municipal taxpayer standing should be brought into line with modern
standing doctrine. ASARCO, 490 U.S. at 613 (plurality opinion) (“We have indicated that the same conclusion may not
hold for municipal taxpayers, if it has been shown that the ‘peculiar relation of the corporate taxpayer to the municipal corporation’ makes the taxpayer’s interest in the application of
municipal revenues ‘direct and immediate.’” (emphasis
added)). But undertaking that task is the Court’s job, not ours.
See Agostini v. Felton, 521 U.S. 203, 237 (1997) (explaining that
lower courts are not free to “conclude [that] more recent cases
have, by implication, overruled an earlier precedent” but
must instead “follow [a] case which directly controls” (citation and internal quotation marks omitted)). So, in analyzing
whether the plaintiﬀs’ injury is cognizable, we will not ask
whether it is concrete and particularized. Instead, we will ask
Forge Christian Coll., 454 U.S. at 479–80 (denying federal taxpayer standing
in an Establishment Clause challenge to executive action).

Case: 19-2308

Document: 86

Nos. 19-2308 & 19-3333

Filed: 08/21/2020

Pages: 23

15

only whether the elements of municipal taxpayer standing
have been satisﬁed.
Municipal taxpayer standing has two threshold requirements. First, and most obviously, the plaintiﬀ must actually
be a taxpayer of the municipality that she wishes to sue. Freedom from Religion Found., Inc. v. Zielke, 845 F.2d 1463, 1470 (7th
Cir. 1988). Second, the plaintiﬀ must establish that the municipality has spent tax revenues on the allegedly illegal action.
Id. The second requirement comes from the Supreme Court’s
decision in Doremus v. Board of Education, which requires a
plaintiﬀ to show that “the taxpayer’s action … is a good-faith
pocketbook action.” 342 U.S. 429, 434 (1952). The plaintiﬀ
must be able to show that she has “the requisite ﬁnancial interest that is, or is threatened to be, injured by” the municipality’s illegal conduct. Id. at 435.
The burden of establishing standing is on the plaintiﬀs. See
Clapper v. Amnesty Int’l USA, 568 U.S. 398, 411–12 (2013). As
we’ve already mentioned, though, the plaintiﬀs aren’t the
ones who have invoked municipal taxpayer standing—the
defendants are. And despite their support of this theory now,
the defendants’ earlier argument against it was better. As the
defendants told the district court, the record doesn’t support
the conclusion that the plaintiﬀs have suﬀered a direct pocketbook injury from the conversion of part of Jackson Park into
the campus of the Obama Presidential Center. That is so for
several reasons.
For one thing, a plaintiﬀ who asserts municipal taxpayer
standing “must show that the municipality has actually expended funds on the allegedly illegal elements of the disputed
practice.” Nichols v. City of Rehoboth Beach, 836 F.3d 275, 282
(3d Cir. 2016) (emphasis added). Here, the plaintiﬀs argue

Case: 19-2308

16

Document: 86

Filed: 08/21/2020

Pages: 23

Nos. 19-2308 & 19-3333

that the “allegedly illegal elements”—which is to say, the elements of the defendants’ actions that violate the public trust
doctrine—are the construction and operation of the Obama
Presidential Center. But the Obama Foundation—not the
City—will bear the project’s costs. The City’s agreement with
the Foundation provides that the cost of initially constructing
the Center, of operating the Center once it is built, and of
maintaining the Center going forward will all be the Foundation’s responsibility. Thus, no tax dollars will be spent to build
or operate the Center. And “if no tax money is spent on the
allegedly [illegal] activity,” then “[a] plaintiﬀ’s status as a municipal taxpayer is irrelevant for standing purposes.” Freedom
from Religion Found., 845 F.2d at 1470.
To be sure, the City is set to spend millions of dollars to
prepare the Jackson Park site for construction of the Center,
even though it isn’t paying for the Center itself. Specifically,
the City will pay for three projects: alteration and rerouting of
roadways, including removing Cornell Drive and converting
the roadway into parkland; environmental remediation and
utilities work; and construction of athletic facilities. But the
plaintiffs have not claimed that those three projects themselves violate the public trust doctrine or are otherwise beyond the City’s power to undertake. That means that those
projects cannot be the allegedly offending elements of the defendants’ actions, which in turn means that the City’s spending on those projects is beside the point for municipal taxpayer standing. Cf. Gonzales v. North Township, 4 F.3d 1412,
1416 (7th Cir. 1993) (rejecting municipal taxpayer standing to
challenge the display of a crucifix in a public park because the
city did not pay to acquire, display, or maintain the crucifix
itself). If the allegedly illegal conduct is the construction and
operation of the Center, and taxpayer dollars aren’t being

Case: 19-2308

Document: 86

Nos. 19-2308 & 19-3333

Filed: 08/21/2020

Pages: 23

17

spent on that conduct, then that alone is enough to defeat the
plaintiffs’ municipal taxpayer standing.
But even if we accepted that the City-funded projects are
relevant, there is yet another problem—there has been no
showing that the City will pay for those projects with municipal taxes. See Amnesty Int’l USA, 568 U.S. at 411–12 (noting
that “at the summary judgment stage,” a plaintiﬀ “can no
longer rest on … ‘mere allegations,’ but must ‘set forth’ by afﬁdavit or other evidence ‘speciﬁc facts’” supporting standing
(citation omitted)). It is not enough to simply allege that the
City is spending money; the existence of municipal taxpayer
standing depends on where the money comes from. The parties fail to grapple with the possibility that the relevant funds
come from a source other than tax dollars. And that possibility isn’t remote—nearly a third of the City’s revenue comes
from nontax sources. See CITY OF CHICAGO, 2020 BUDGET
OVERVIEW 38, https://www.chicago.gov/content/dam/city/de
pts/obm/supp_info/2020Budget/2020BudgetOverview.pdf
(last visited Aug. 20, 2020) (noting that 32.9% of the City’s
budget was derived from nontax revenue). These nontax
sources are as varied as licensing fees, parking tickets, concessions contracts, and federal and state grants. Id. at 37–38 (cataloguing the sources of city revenue); id. at 48 (noting that the
City received $1.66 billion in grants during its 2019 ﬁscal year
and projecting that grants will account for 14% of the budget
for the 2020 ﬁscal year). It would be far too simplistic to conclude that the City is spending tax money on a project simply
because it is spending some money on a project.
Municipal taxpayers have standing to sue only when they
have both identiﬁed an action on the city’s part that is allegedly illegal and adequately shown that city tax dollars will be

Case: 19-2308

Document: 86

Filed: 08/21/2020

18

Pages: 23

Nos. 19-2308 & 19-3333

spent on that illegal activity. See Cantrell v. City of Long Beach,
241 F.3d 674, 683–84 (9th Cir. 2001). Here, neither prong is satisﬁed. Thus, the plaintiﬀs’ status as municipal taxpayers is insuﬃcient to confer Article III standing.
III.
We now turn to the plaintiﬀs’ two federal claims: that the
defendants took their property in violation of the Fifth and
Fourteenth Amendments. See U.S. CONST. amend. V (“[P]rivate property [shall not] be taken for public use, without just
compensation.”); U.S. CONST. amend. XIV, § 1, cl. 3 (“[N]or
shall any State deprive any person of … property, without
due process of law.”). Neither of these claims can get oﬀ the
ground unless the plaintiﬀs prove that they have a private
property interest in Jackson Park. To accomplish that, the
plaintiﬀs return to the public trust doctrine and add a twist:
they argue that the public trust doctrine not only curtails a
state’s ability to transfer public land to a private party but also
confers a private property right on members of the public.
Analogizing to the law of trusts, the plaintiﬀs insist that they
are “beneﬁciaries” of Jackson Park, which the defendants
hold in trust on the public’s behalf. And, according to the
plaintiﬀs, this “beneﬁcial interest” is private property that is
protected by the United States Constitution.
Unlike the state claims, the federal claims do allege a cognizable injury: the deprivation of a property right. See Warth
v. Seldin, 422 U.S. 490, 500 (1975) (explaining that standing “often turns on the nature and source of the claim asserted”). To
be sure, the alleged property right—a beneﬁcial interest in a
public park—is highly unusual, and one might be immediately skeptical about whether it exists. But when the existence
of a protected property interest is an element of the claim,

Case: 19-2308

Document: 86

Nos. 19-2308 & 19-3333

Filed: 08/21/2020

Pages: 23

19

deciding whether the interest exists virtually always goes to
the merits rather than standing. Booker-El v. Superintendent,
Ind. State Prison, 668 F.3d 896, 900 (7th Cir. 2012) (“Were we to
require more than a colorable claim [to a property interest],
we would decide the merits of the case before satisfying ourselves of standing.”). So, for example, in Booker-El, we held
that a plaintiﬀ had standing to assert a procedural due process claim against prison administrators for mismanaging a
general recreation fund held for the beneﬁt of inmates, even
though we concluded, on the merits, that Indiana law did not
give the plaintiﬀ a protected property interest in the fund. Id.
at 900–01. 4 As cases like Booker-El illustrate, it is not unusual
for the distinction between standing and the merits to cause
conceptual trouble when a plaintiﬀ alleges the deprivation of
a dubious property or liberty interest. See id. at 899 (noting
that an argument that the plaintiﬀ lacked standing because he
lacked a protected property interest “conﬂates standing with
the merits”); cf. Matushkina v. Nielsen, 877 F.3d 289, 292 (7th
Cir. 2017) (noting that when a “plaintiﬀ does not have a legal
right enforceable in a federal court … it is not always obvious … whether the problem is a lack of standing or lack of a
viable claim on the merits”). Yet as we have explained before,
to say that a claim “is not worth anything” is a determination
“that concerns the merits rather than … jurisdiction.
4

In this case, the plaintiffs claim a shared property right, insofar as
they claim that they, along with other members of the public, have a beneficial interest in Jackson Park. The mere fact that the alleged right is
widely shared does not defeat standing. Being deprived of one’s property
is a concrete and particularized injury, even if the property is intangible
or one’s ownership is fractional. See Spokeo, 136 S. Ct. at 1548–49; Warth,
422 U.S. at 501 (noting that an injury can be “distinct and palpable … even
if it is an injury shared by a large class of other possible litigants”).

Case: 19-2308

20

Document: 86

Filed: 08/21/2020

Pages: 23

Nos. 19-2308 & 19-3333

Otherwise every losing suit would be dismissed for lack of
jurisdiction.” Owsley v. Gorbett, 960 F.3d 969, 971 (7th Cir.
2020) (citation omitted).
And so we turn to the merits, which are easily dispatched.
To show that they are similarly situated to beneﬁciaries of a
private trust, the plaintiﬀs emphasize the word “trust” in
“public trust doctrine” and quote cases describing public
parkland as being held “in trust” and “for the beneﬁt of the
public.” Paepcke, 263 N.E.2d at 15; see also Ill. Cent., 146 U.S. at
452 (referring to the state’s ownership of submerged land as
“a title held in trust for the people of the state”). Their argument disintegrates, however, when one reads more than the
snippets they cite. Paepcke is particularly devastating: in that
case, the Illinois Supreme Court held that those owning land
adjacent to or in the vicinity of a public park possess no private property right in having the parkland committed to a
particular use. 263 N.E.2d at 16; see also Petersen v. Chi. Plan
Comm’n of City of Chi., 707 N.E.2d 150, 155 (Ill. App. Ct. 1998)
(rejecting a procedural due process claim based on the expansion of the Museum of Science and Industry on the ground
that the plaintiﬀs had no protectible property interest in Jackson Park). If adjacent landowners have no protected interest
in public land, then the plaintiﬀs don’t have one either. Although the plaintiﬀs wish it were otherwise, the Illinois cases
make clear that the public trust doctrine functions as a restraint on government action, not as an aﬃrmative grant of
property rights. 5
5

And even if the doctrine conferred a property interest on members
of the public, that interest would not necessarily qualify for protection under the Constitution. Town of Castle Rock v. Gonzales, 545 U.S. 748, 757

Case: 19-2308

Document: 86

Nos. 19-2308 & 19-3333

Filed: 08/21/2020

Pages: 23

21

The lack of a property interest is the most fundamental defect in both of the plaintiﬀs’ federal claims, yet it is by no
means the only one. With respect to the takings claim, the
plaintiﬀs seek injunctive relief but not money damages. Although the plaintiﬀs don’t spell out their argument, the request for injunctive relief suggests that their complaint is that
the Center does not qualify as a “public use” rather than that
the City has failed to pay them “just compensation.” U.S.
CONST. amend. V. This is a losing argument. Even assuming
that the City’s use agreement with the Foundation qualiﬁes as
a transfer to a private party, the Supreme Court held in Kelo
v. City of New London that a transfer to a private owner can still
be constitutional if it is done for a “public purpose.” 545 U.S.
469, 483–84 (2005). What’s more, the City’s judgment that a
particular transfer and use has a public purpose is entitled to
deference. Id. at 488–89. It’s hard to see, then, how we could
“second-guess the City’s determination[]” that building the
Center—with its museum, public library branch, auditorium,
athletic center, gardens, and more—is a use with public beneﬁts. Id. at 488.
The plaintiﬀs’ procedural due process claim also has problems beyond the lack of a protected property interest. For this
claim to succeed, the plaintiﬀs must establish that the procedures they received fell short of minimum constitutional requirements, Doe v. Purdue Univ., 928 F.3d 652, 659 (7th Cir.
2019), and the plaintiﬀs have failed to identify what greater
process they were due. The City enacted four separate
(2005) (“Although the underlying substantive interest is created by ‘an independent source such as state law,’ federal constitutional law determines
whether that interest rises to the level of a ‘legitimate claim of entitlement’
protected by the Due Process Clause.” (citation omitted)).

Case: 19-2308

Document: 86

Filed: 08/21/2020

22

Pages: 23

Nos. 19-2308 & 19-3333

ordinances approving various aspects of the Center. The votes
on those ordinances came after multiple public hearings at
which residents could raise their concerns about the City’s intended plans. And the Illinois General Assembly amended
the Illinois Park District Aquarium and Museum Act to explicitly authorize cities and park districts to erect, operate, and
maintain “presidential libraries, centers, and museums” in
public parks. 70 ILCS 1290/1. We have noted that a “legislative
determination provides all the process that is due.” Dibble v.
Quinn, 793 F.3d 803, 809 (7th Cir. 2015) (citation omitted). If
one legislative determination is enough, then ﬁve determinations are overkill.
In short, the plaintiﬀs’ Fifth and Fourteenth Amendment
claims fail on the merits, and we aﬃrm the grant of summary
judgment on both.
IV.
We have one ﬁnal bit of housekeeping. The plaintiﬀs also
challenge the district court’s denial of their motion for relief
from the judgment under Federal Rule of Civil Procedure
60(b). Rule 60(b) permits a district court to grant “relief from
a judgment or order” for a number of speciﬁed reasons. In
their motion, the plaintiﬀs suggested two reasons why the
district court should revisit its resolution of their public trust
claim. First, the plaintiﬀs argued that “new and material evidence” had come to light. See FED. R. CIV. P. 60(b)(2). This argument was based on a provisional report completed by the
National Park Service and the Federal Highway Administration as part of assessing whether federal roadway projects or
other alterations connected to the construction of the Center
would have an “adverse eﬀect” on Jackson Park’s listing on
the National Register of Historic Places, see 54 U.S.C. § 306108;

Case: 19-2308

Document: 86

Filed: 08/21/2020

Nos. 19-2308 & 19-3333

Pages: 23

23

36 C.F.R. § 800.5, or qualify as a “major federal action” subject
to the National Environmental Policy Act, see 42 U.S.C.
§ 4332(C). And second, the plaintiﬀs argued that the continued application of the district court’s judgment was inequitable. See FED. R. CIV. P. 60(b)(5).
As we’ve explained, however, the plaintiﬀs lack Article III
standing to bring the public trust claim in the ﬁrst place. That
pulls the rug out from under their arguments in favor of Rule
60(b) relief. Whatever the merits of those arguments, both we
and the district court lack jurisdiction to resolve the plaintiﬀs’
public trust claim. That puts to rest any contention that the
district court should have revisited its holding on that count.
We thus aﬃrm the denial of the motion, albeit on diﬀerent
grounds.
***
While we affirm the grant of summary judgment on the
Fifth and Fourteenth Amendment claims, we vacate the grant
of summary judgment on the public trust and ultra vires
claims. We hold that the plaintiffs lack standing to bring those
latter claims in federal court, and therefore that the district
court should have dismissed them for lack of jurisdiction. We
also affirm the denial of the motion for relief from the judgment under Rule 60(b).
The judgment is AFFIRMED in part and VACATED in
part, and the case is REMANDED.

APPENDIX B

Case: 1:18-cv-03424 Document #: 165 Filed: 11/06/19 Page 1 of 6 PageID #:7918

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION

PROTECT OUR PARKS, INC.,
CHARLOTTE ADELMAN,
MARIA VALENCIA, and
JEREMIAH JUREVIS,
Plaintiffs,

Case No. 18-cv-3424

v.
CHICAGO PARK DISTRICT and
CITY OF CHICAGO,

Judge John Robert Blakey

Defendants.

ORDER
On June 11, 2019, this Court granted Defendants’ motion for summary
judgment and denied Plaintiffs’ cross-motion for summary judgment, terminating
this case. [144] [145]. On August 7, 2019, Plaintiffs Protect Our Parks, Inc. and
Maria Valencia filed a motion to vacate this Court's summary judgment order and
reopen the case under Rules 60(b)(2), (b)(5), and b(6), based upon a draft report issued
by two federal agencies as part of the “Section 106” process, originating from Section
106 of the National Historic Preservation Act, 54 U.S.C. § 306108. [156]. 1 Because
this case remains on appeal, Plaintiffs also request an indicative ruling pursuant to
Rule 62.1, so that Plaintiffs may ask the Seventh Circuit to remand jurisdiction to
Plaintiffs’ motion challenges only this Court’s ruling on Count II of Plaintiff’s amended complaint,
which alleged a breach of the public trust under Illinois law. [91]; [156-1] at 1−2.
1

1

Case: 1:18-cv-03424 Document #: 165 Filed: 11/06/19 Page 2 of 6 PageID #:7918

this Court for purposes of deciding the Rule 60 motion. Id. Defendants filed a
response on 8/15/19. [159].
Rule 62.1(a) provides:
If a timely motion is made for relief that the court lacks authority to
grant because of an appeal that has been docketed and is pending, the
court may: (1) defer considering the motion; (2) deny the motion; or (3)
state either that it would grant the motion if the court of appeals
remands for that purpose or that the motion raises a substantial issue.
LAJIM, LLC v. GE, 917 F.3d 933, 948 (7th Cir. 2019) (citing Fed. R. Civ. P. 62.1(a)(3)).
This Court denies Plaintiffs’ motion.
Rule 60(b) provides that a court may relieve a party from a final judgment,
order, or proceeding for a variety of reasons, including newly discovered evidence. As
an initial matter, relief under Rule 60(b) serves as “an extraordinary remedy . . .
granted only in exceptional circumstances.” Id. (citing Davis v. Moroney, 857 F.3d
748, 751 (7th Cir. 2017)). Here, the Section 106 process remains far from exceptional;
in fact, Plaintiffs’ original complaint, filed in May 2018, demonstrates that they knew
about the Section 106 process since the filing of this suit. [1] ¶ 48. Nevertheless,
Plaintiffs proceeded forward with no mention of any need to wait for the Section 106
process. For example, on August 20, 2018, Plaintiffs’ counsel moved to lift this Court’s
stay on MIDP and Defendants’ deadline to answer the complaint, arguing:
The prejudice is that [Defendants are] delaying our case by a year when
we filed it in May and they’re looking to get some type of [ruling] even

2

Case: 1:18-cv-03424 Document #: 165 Filed: 11/06/19 Page 3 of 6 PageID #:7918

addressing the complaint on the merits maybe in 2019. That’s prejudice
in and of itself . . . justice delayed is justice denied, your Honor.
[27] at 9. Consistent with the interests of justice, this case has been resolved without
undue delay. For these reasons, this Court finds disingenuous Plaintiffs’ assertion
that the draft report constitutes “some of the most important and relevant factual
evidence in this case.” [156-1] at 2.
Moreover, Rule 60(b)(2), upon which Plaintiffs primarily rely in their motion,
permits vacatur based upon “newly discovered evidence that, with reasonable
diligence, could not have been discovered in time to move for a new trial.” Anderson
v. Catholic Bishop of Chi., 759 F.3d 645, 653 (7th Cir. 2014) (citing Fed. R. Civ. P.
60(b)(2)). And to prevail under Rule 60(b)(2), Plaintiffs must show that the draft
report, as newly discovered evidence, constitutes “material” evidence that “would
probably produce a new result” if considered by this Court. Jones v. Lincoln Elec. Co.,
188 F.3d 709, 732 (7th Cir. 1999); Harris v. Owens-Corning Fiberglas Corp., 102 F.3d
1429, 1434, n.3 (7th Cir. 1996). This Court states, with certainty, that it would not.
In its summary judgment decision, this Court delineated the three standards
under which Illinois courts must apply the public trust doctrine, based upon the
property’s relationship to navigable waterways. [145] at 23. The OPC site sits upon
never-submerged land. Id. at 21−22. As such, courts facing public trust claims over
never-submerged, statutorily designated parkland must ask only whether sufficient
legislative intent exists for a given land reallocation or diversion. Id. at 24 (citing
Paepcke v. Public Bldg. Com., 263 N.E.2d 11, 19 (Ill. 1970)). This Court found that

3

Case: 1:18-cv-03424 Document #: 165 Filed: 11/06/19 Page 4 of 6 PageID #:7918

sufficient legislative intent exists based upon the Park District Aquarium and
Museum Act, 70 ILCS 1290/1. [145] at 24−30. The draft report fails to alter this
Court’s interpretation of the Museum Act’s plain language. Therefore, it will not
produce a new result if this case were reopened.
In the alternative, this Court found that even under the heightened levels of
scrutiny applied to formerly submerged and presently submerged land, the OPC still
does not violate the public trust. Id. at 30−35. In arriving at this conclusion, this
Court considered whether: (1) the OPC primarily benefits a private entity, with no
corresponding public benefit; and (2) whether the OPC’s primary purpose benefits the
public, rather than private interests.

Id.

This Court answered both questions

affirmatively, based upon well-established case law concerning public stadiums and
the longstanding importance of museums to the general public. Id. (citing Friends of
the Parks v. Chi. Park Dist, 786 N.E.2d 161; Furlong v. South Park Comm’rs, 151
N.E. 510, 511 (Ill. 1926); and Fairbanks v. Stratton, 152 N.E.2d, 569, 575 (Ill. 1958)).
In its own words, the draft report “documents the assessments of effect to
National Register of Historic Places (NRHP) listed and eligible historic properties
associated with” the proposed OPC undertakings. [156-3], § 1.0. According to the
Federal Highway Administration, the report serves as only one step in the broader
Section 106 process, which culminates in a consultation between a variety of federal,
city, and state offices to “avoid, minimize or mitigate” any adverse effects. Id. at 2.
As such, this Court cannot find that an unfinished review of the OPC’s potential
effects on historic properties shows that the public will receive no public benefit

4

Case: 1:18-cv-03424 Document #: 165 Filed: 11/06/19 Page 5 of 6 PageID #:7918

whatsoever from the OPC. Nor can the draft report alter the longstanding legal
precedence regarding museums’ role in serving the public interest. Thus, it will not
produce a new result, even under the public trust doctrine’s heightened levels of
scrutiny.
Plaintiffs also move for relief under Rules 60(b)(5)—permitting relief from a
final judgment when applying the judgment is no longer equitable—and Rule
60(b)(6)—permitting relief for any other justifiable reason. New Century Mortg. Corp.
v. Roebuck, No. 01 C 3591, 2003 WL 21501780, at *4−5 (N.D. Ill. June 25, 2003) (citing
Fed. R. Civ. P. 60(b)(5)−(6)). Because this Court finds that the draft report fails to
alter or otherwise impact its public trust analysis, applying this Court’s summary
judgment decision remains equitable. Plaintiffs have shown no other reason to justify
relief in this case.
In short, this Court will not reopen a claim, decided under Illinois law and with
deference to the Illinois legislature, to evaluate a draft federal report, which
Plaintiffs: (1) concede is part of a still-ongoing federal review process, [156-1] at 3−4;
and (2) have known about since the filing of this suit in May 2018, [91] ¶ 48.
Therefore, this Court denies Plaintiffs’ motion to vacate its final judgment
order under Rule 60(b), pursuant to Rule 62.1(a)(3), [156]. This case remains closed.

5

Case: 1:18-cv-03424 Document #: 165 Filed: 11/06/19 Page 6 of 6 PageID #:7918

Dated: November 6, 2019

Entered:

__________________________________
John Robert Blakey
United States District Judge

6

APPENDIX C

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 1 of 52 PageID #:7494

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
PROTECT OUR PARKS, INC.,
CHARLOTTE ADELMAN,
MARIA VALENCIA, and
JEREMIAH JUREVIS,
Plaintiffs,

Case No. 18-cv-3424

v.
CHICAGO PARK DISTRICT and
CITY OF CHICAGO,

Judge John Robert Blakey

Defendants.
MEMORANDUM OPINION AND ORDER
This dispute arises out of the City of Chicago (City) and the Chicago Park
District’s (Park District) efforts to bring the Obama Presidential Center (OPC) to the
City’s South Side. Plaintiffs sue to prevent construction of the OPC on a specific site
within Jackson Park. [91] ¶ 1. Following this Court’s ruling on Defendants’ Rule
12(b)(1) motion to dismiss, [92], the parties completed full discovery and filed crossmotions for summary judgment, [112] [122]. On June 11, 2019, this Court held a
hearing, and heard oral argument only on those issues and counts which required
consideration beyond the briefs.
This order addresses the merits of the case. In doing so, this Court faces the
same challenge presented to the Illinois Supreme Court in Paepcke v. Public Building
Commission of Chicago, 263 N.E.2d 11 (Ill. 1970). As they put it:

1

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 2 of 52 PageID #:7494

[T]his court is fully aware of the fact that the issues presented in this
case illustrate the classic struggle between those members of the public
who would preserve our parks and open lands in their pristine purity
and those charged with administrative responsibilities who, under the
pressures of the changing needs of an increasingly complex society, find
it necessary, in good faith and for the public good, to encroach to some
extent upon lands heretofore considered inviolate to change. The
resolution of this conflict in any given case is for the legislature and not
the courts. The courts can serve only as an instrument of determining
legislative intent as evidenced by existing legislation measured against
constitutional limitations. In this process the courts must deal with
legislation as enacted and not with speculative considerations of
legislative wisdom.
Id. at 21. With this principle in mind and for the sound reasons set forth below, this
Court grants Defendants’ motion for summary judgment, [122], and denies Plaintiffs’
motion for summary judgment, [112].

The facts do not warrant a trial, and

construction should commence without delay. This case is terminated.
I.

Background
The following facts come from Plaintiffs’ Rule 56.1 statement of facts, [112-1],

Defendants’ Rule 56.1 statement of facts, [124], Plaintiffs’ statement of additional
material facts, [136], and Defendants’ statement of additional material facts, [139]. 1
A.

The Parties

Plaintiff Protect Our Parks, Inc. is a nonprofit park advocacy organization
located in Chicago. [112-1] ¶ 1; [124] ¶ 1. Its members include individuals who reside
in the City of Chicago and pay taxes to the City. Id. Plaintiff Adelman resides in

Both parties submitted their responses to each other’s statements of material facts and their own
statements of additional facts within the same docket number. See [136] [139]. Unless otherwise
noted, all cites to [136] and [139] in this opinion refer to the parties’ statements of additional facts.
1

2

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 3 of 52 PageID #:7494

Wilmette, Illinois. Id. Plaintiffs Valencia and Jurevis reside in the City of Chicago.
Id.
Defendant Park District exists as a body politic and corporate entity
established by Illinois law, pursuant to the Chicago Park District Act, 70 ILCS
1505/.01, et seq. [112-1] ¶ 2; [124] ¶ 2. Defendant City is a body politic and municipal
corporation. [112-1] ¶ 3; [124] ¶ 3.
B.

Selecting the OPC Site

In March 2014, the Barack Obama Foundation (Foundation) initiated a search
for the future site of the OPC. [112-1] ¶ 4. Both the University of Chicago and the
University of Illinois Chicago (UIC) proposed potential locations. Id. ¶¶ 5, 19. UIC
proposed two sites, generally located at: (1) the North Lawndale neighborhood; and
(2) the east end of the school’s campus. Id. ¶ 19; [126-2] at 105098. The University
of Chicago proposed three sites, generally located at: (1) the South Shore Cultural
Center 2; (2) Jackson Park; and (3) Washington Park. [112-1] ¶ 5; [126-2] at 105098.
At this time, the Park District owned both the Jackson Park and Washington Park
parkland identified in the University of Chicago’s proposal. [126-2] at 105098.
In addition to these sites, nine entities from several locations throughout the
country submitted proposals for the OPC, resulting in a total of 14 potential sites.
[112-1] ¶ 25.

The Foundation performed an analysis of the proposals from all

submitting entities, evaluating the sites based upon the following criteria:
•

Project Site and Access: desirability of site, surrounding
community, control of site, local accessibility, global accessibility

The City and Park District later eliminated the South Shore site from consideration as a potential
location. [112-1] ¶ 7.
2

3

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 4 of 52 PageID #:7494

•

Project Execution: education impact, tourism impact, economic
development impact, enhancements to the physical environment

•

Community Engagement: engagement plan, quality/breadth of
partners, means of engagement

•

Indications of Support: partnership structure, alignment of
mission, financial capacity.

Id.; [117-5] at 5. The Foundation assigned numerical scores to each site based upon
the above evaluation criteria, and ranked the sites based upon these scores. [112-1]
¶ 26; [117-5] at 8−9. The Washington Park Site received the highest score at 122 out
of 150; the Jackson Park site received the second highest score at 121 out of 150; and
the UIC’s proposed locations received a combined score of 120 out of 150, putting it
in third place. Id.
On July 29, 2016, the Foundation issued a press release announcing that it
chose Jackson Park as the OPC site. [124] ¶ 13; [114-16].
C.

The OPC Site
i.

Site Location

The site selected for the OPC within Jackson Park comprises 19.3 acres, or 3.5
percent of the 551.52 acres comprising Jackson Park. [124] ¶ 6. It lies on the western
edge of Jackson Park and includes existing parkland bounded by South Stony Island
Avenue to the west, East Midway Plaisance Drive North to the north, South Cornell
Drive to the east, and South 62nd Street to the south. Id. ¶ 7. The OPC site also
includes land within the park that currently exists as city streets: the portion of East
Midway Plaisance Drive North between Stony Island Avenue and South Cornell
4

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 5 of 52 PageID #:7494

Drive, and a portion of South Cornell Drive between East Midway Plaisance Drive
South and East Hayes Drive. Id. As part of the OPC construction, these street
portions would be closed and removed “to restore” the landscape’s connection to the
Lagoon and Lake.” Id. ¶¶ 7, 40.
The site lies approximately half a mile from Lake Michigan, separated by: (1)
six-lane Cornell Drive; (2) the lagoons and Wooded Island of Jackson Park; (3)
Jackson Park’s golf driving range and other grounds; (4) Lake Shore Drive; and (5) a
pedestrian and bike path. Id. ¶ 7. It sits entirely above ground, although the parties
dispute whether the site formerly sat beneath Lake Michigan. Id. ¶ 9; [136] ¶ 9
(Plaintiffs’ response).
ii.

Site Components

The OPC will consist of a campus containing open green space, a plaza, and
four buildings: (1) the Museum Building; (2) the Forum Building; (3) a Library
Building; and (4) a Program, Athletic, and Activity Center. [124] ¶¶ 23, 26. It will
also include an underground parking garage. Id. ¶ 23.

5

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 6 of 52 PageID #:7494

[91] ¶ 50.
The Museum will comprise the OPC’s principal building and “central mission.”
[124] ¶ 24. It seeks to “tell the stories of the first African American President and
First Lady of the United States, their connection to Chicago, and the individuals,
communities, and social currents that shaped their local and national journey.” Id.
¶ 25. In doing so, the Museum will feature artifacts and records from President
Obama’s presidency, including items on loan from the National Archives and Records
Administration (NARA). Id. ¶¶ 24−25; [125-5] (Exhibit D, Recital J).
The Forum Building will contain collaboration and creative spaces, including
an auditorium, meeting rooms, recording and broadcasting studios, and a winter
garden and restaurant. [124] ¶ 27.
The Library Building will include a branch of the Chicago Public Library and
a President’s Reading Room, featuring curated collections and displays of archival
6

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 7 of 52 PageID #:7494

material, including digital access to Obama Administration records. Id. ¶ 28; [125-5]
(Exhibit D, (Sub) Exhibit “C”).
The Program, Athletic, and Activity Center will host public programs such as
“presentations, events, athletics, and recreation.” [124] ¶ 29; [125-5] (Exhibit D, (Sub)
Exhibit “C”).
The OPC’s green space will include features such as: (1) play areas for children;
(2) “contemplative spaces for young and old”; (3) a sledding hill; (4) a sloped lawn for
picnicking, recreation and community and special events; (5) walking paths; and (6)
a nature walk along the lagoon. [124] ¶ 30. The Foundation will also “preserve and
enhance” the existing Women’s Garden and Lawn, keeping it open and available as
green space. Id.
iii.

Site Accessibility

According to the Use Agreement between the City and Foundation, discussed
in detail below, the OPC buildings must “be open to the public at a minimum in a
manner substantially consistent with the manner in which other Museums in the
Parks are open to the public.” Id. ¶ 26; [125-5] (Exhibit D, § 6.2(a)(i)). All other
portions of the OPC, such as the green space, must remain open to the public during
regular Park District hours. [124] ¶ 30; [125-5] (Exhibit D, § 6.2(a)(ii)).
The OPC will charge fees for entry into the Museum and for the parking
garage. [112-1] ¶ 43. It will, however, provide free public access to many interior
spaces within the OPC, including portions of the garden and plaza levels in the
Museum Building and the top floor of the Museum Building. [124] ¶ 26. Moreover,

7

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 8 of 52 PageID #:7494

the Foundation must operate the OPC in accordance with the free admission
requirements of Illinois’ Park District Aquarium and Museum Act, which mandates
free admission to all Illinois residents at least 52 days out of the year and to all Illinois
school children accompanied by a teacher. Id. ¶ 37. The admission fee policy for
members of the public who are City residents, or low-income individuals and their
families participating in the Supplemental Nutrition Assistance Program (or
equivalent program), must also be “substantially consistent with comparable general
admission fee policies” for such individuals maintained by “other Museums in the
Park.” [125-5] (Exhibit D, § 6.10).
D.

OPC Municipal Approval Process
i.

Jackson Park’s Creation

In 1869, the General Assembly passed “An Act to Provide for the Location and
Maintenance of a Park for the Towns of South Chicago, Hyde Park and Lake” (1869
Act). [112-1] ¶ 17; Private Laws, 1869, vol. 1, p. 358. The statute provided for the
formation of a board of public park commissioners to be known as the “South Park
Commissioners.” Id. The Act authorized these commissioners to select certain lands,
which, when acquired by said commissioners, “shall be held, managed and controlled
by them and their successors, as a public park, for the recreation, health and benefit
of the public, and free to all persons forever.” Private Laws, 1869, vol. 1, p. 360.
Pursuant to this authority, the commissioners acquired the land now known as
Jackson Park. [112-1] ¶ 17; [139] ¶ 17 (Defendants’ response).

The Illinois

Legislature enacted the Park District Consolidation Act in 1934, which consolidated

8

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 9 of 52 PageID #:7494

the existing park districts, including the South Park District, into the Chicago Park
District. 70 ILCS 1505/1.
ii.

Transfer From the Park District to the City

In early January of 2015—before the Jackson Park site selection—the
Foundation expressed “concerns regarding the City’s lack of control” over the
proposed Jackson and Washington Park sites and indicated that “consolidating
ownership of the sites and local decision-making authority in the City was a
prerequisite to a successful bid.” [126-2] at 105098−99.
Subsequently, in February 2015—in an open meeting during which members
of the public spoke and submitted written comments—the Park District’s Board of
Commissioners voted to approve the transfer of “approximately 20 acres of property”
located in Washington Park or Jackson Park to the City. [124] ¶ 11; [125-4] at 4, 11.
Following this meeting, the OPC site’s boundaries within Jackson Park shifted to the
north and east. [124] ¶ 11.
In February 2018, after a public meeting, the Board of Commissioners
confirmed authority to transfer the reconfigured site to the City. Id.
In March 2015, the City Council enacted an ordinance “authorizing the
execution of an intergovernmental agreement between the City of Chicago and the
Chicago Park District necessary to acquire selected sites in order to facilitate the
location, development, construction and operation” of the OPC. [124] ¶ 12; [126-2] at
105096. In October 2018, following the Jackson Park selection, the City Council
passed an ordinance finding it “useful, desirable, necessary and convenient that the

9

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 10 of 52 PageID #:7494

City acquire the OPC site from the Park District” for the “public purpose” of
constructing and operating the OPC. [124] ¶ 12; [125-5] at 85886 § 2.
iii.

City Council Approval

In January 2018, the Foundation applied to the City for a zoning amendment
to build the OPC on the Jackson Park site as a “planned development”—a designation
required for certain institutional and campus-oriented projects. [124] ¶ 13; [126-3].
The Foundation also applied for approval under the City’s Lake Michigan and
Chicago Lakefront Protection Ordinance (LPO). [124] ¶ 13. The City’s Department
of Planning and Development (DPD) subsequently reviewed both applications and
prepared a report (DPD Study) as required by the City’s Municipal Code. Id. The
DPD Study recommended approving both applications. Id.
On May 17, 2018, the Chicago Plan Commission—which reviews proposals
involving planned developments and the Lakefront Protection Ordinance within the
City—held a public hearing on the Foundation’s application for a planned
development zoning amendment and for approval under the LPO. Id. ¶ 14; [126-5].
Representatives from the City and the Foundation testified at the hearing, and over
75 members of the public commented on the proposals. [124] ¶ 14. The presentation
from DPD staff included a slideshow depicting various renderings of the OPC
proposal. Id.
At the conclusion of this hearing, the Plan Commission found that the OPC
project conformed with the LPO and approved the Foundation’s application under the
LPO. Id. ¶ 15. In doing so, the Plan Commission adopted the DPD Study as its

10

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 11 of 52 PageID #:7494

findings of fact. Id. Under the City’s Municipal Code, the Plan Commission serves
as the final decisionmaker as to whether a project complies with the Lakefront Plan
of Chicago and the purposes of the LPO. Id.; Municipal Code of Chicago (MCC) § 164-100(e).
Also at the May 17 hearing, the Plan Commission recommended approval of
the Foundation’s application for a zoning amendment. [124] ¶ 16. Again, the Plan
Commission adopted the DPD Study as the Commission’s own findings of fact. Id.
Under the City’s Municipal Code, after considering a zoning amendment application,
the Plan Commission must refer the application to the City Council, which serves as
the final decisionmaker on the amendment. Id.; MCC § 17-13-0607.
Accordingly, on May 22, 2018, the City Council’s Committee on Zoning,
Landmarks and Building Standards held a public hearing to consider the zoning
amendment.

[124] ¶ 17.

Following testimony from City and Foundation

representatives and public comments, the Committee voted to recommend approval.
Id.

The next day, the full City Council approved the amendment, enacting an

ordinance that authorized construction of the OPC as a Planned Development; this
ordinance controls the size and layout of the OPC’s buildings. Id. ¶ 18.
In October 2018, the City Council considered and approved two additional
ordinances for the OPC project.

Id. ¶ 19.

First, it considered the Operating

Ordinance, which allows the City to accept title to the Jackson Park site from the
Park District and to enter into agreements with the Foundation governing the
Foundation’s use of the site. Id. On October 11, 2018, the City Council’s Committee

11

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 12 of 52 PageID #:7494

on Housing and Real Estate held a public hearing on the Operating Ordinance,
during which City and Foundation representatives testified about the ordinance and
members of the public commented.

Id.

The Committee voted unanimously to

recommend adopting the Operating Ordinance, and the full City Council
unanimously approved it on October 31, 2018. Id.
Second, the City Council considered an ordinance authorizing the City to
vacate portions of East Midway Plaisance Drive South and Cornell Drive within
Jackson Park for conversion into parkland as part of the OPC site. Id. ¶ 20. On
October 25, 2018 the City Council’s Committee on Transportation and Public Way
held a public hearing on the ordinance, during which City and Foundation
representatives again testified, and members of the public commented. Id. The
Committee voted unanimously to recommend adopting the ordinance, and the full
City Council unanimously approved it on October 31, 2018. Id.
iv.

The Use Agreement

One of the agreements authorized by the Operating Ordinance includes the
Use Agreement, which sets out the terms by which the Foundation may use Jackson
Park for the OPC. Id. ¶ 21; [125-5] (Exhibit D). The Use Agreement does not transfer
ownership of the OPC site, nor does it lease the site to the Foundation. See generally
[125-5] (Exhibit D); [112-1] ¶ 46. Rather, section 2.1 of the Use Agreement provides
the Foundation with the following rights with respect to the OPC site for a 99-year
term:

12

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 13 of 52 PageID #:7494

(a) the right to construct and install the Project Improvements 3
(including the Presidential Center);
(b) the right to occupy, use, maintain, operate and alter the Presidential
Center Architectural Spaces 4; and
(c) the right to use, maintain, operate and alter the Presidential Center
Green Space and Green Space. 5
[125-5] (Exhibit D, §§ 2.1−.2).
The Foundation will construct the OPC’s buildings at its own expense and upon
completion, transfer ownership of the buildings and other site improvements to the
City at no charge. Id. §§ 2.1, 4.4; [124] ¶ 34. The Foundation will also maintain the
OPC site and buildings at its sole expense for the entire life of the Use Agreement.
[124] ¶ 35; [125-5] (Exhibit D, §§ 2.2, 7.1). The City is not required to enter into the
Use Agreement until the Foundation establishes an endowment for the OPC and the
site, and confirms that it has funds or commitments sufficient to pay the projected
construction costs. [124] ¶ 36.
As to consideration, the Use Agreement provides:
The consideration for this Agreement is Ten and 00/100 Dollars ($10.00)
payable by the Foundation on the Commencement Date, the receipt and
The Use Agreement defines “project improvements” as the Presidential Center Architectural Spaces
and all other improvements constructed, installed, or located on the OPC site by the Foundation in
accordance with the Use Agreement. [125-5] (Exhibit D, Art. I). The “Presidential Center” includes
the “Presidential Center Architectural Spaces” and the “Presidential Center Green Space,” as well as
all other improvements and fixtures constructed, installed, or located by the Foundation in accordance
with the Use Agreement. Id.
3

“Presidential Center Architectural Spaces” includes the Museum Building, the Forum Building, the
Library Building, the Program, Athletic and Activity Center, the Underground Parking Facility, the
Plaza, and all “other facilities and improvements ancillary to any of the foregoing,” such as
loading/receiving areas and service drives. [125-5] (Exhibit D, Art. I).
4

“Presidential Center Green Space” means all portions of the Presidential Center other than the
Presidential Center Architectural Spaces. [125-5] (Exhibit D, Art. I). “Green Space” means all portions
of the OPC site excluding the Presidential Center. Id.

5

13

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 14 of 52 PageID #:7494

sufficiency of which, when taken together with the construction,
development, operation, maintenance and repair of the Presidential
Center and the other Project Improvements by the Foundation, the
vesting of ownership of the Project Improvements by the Foundation in
the City (as contemplated herein), as well as the material covenants and
agreements set forth herein to be performed and observed by the
Foundation, are hereby acknowledged by the City.
[125-5] (Exhibit D, Art. III).
With respect to operating the OPC, the Use Agreement prohibits the
Foundation from using the OPC for political fundraisers or in any manner
inconsistent with its status as a tax exempt entity under Section 501(c)(3) of the
Internal Revenue Code. Id. at § 6.3(d); [124] ¶ 21. The Foundation must use revenues
collected from general and special admission fees, parking and other visitor services,
third-party use fees, food and beverage sales, and retail sales for the OPC’s operations
and maintenance, or deposit such revenues into an endowment for those purposes.
[124] ¶ 21; [125-5] (Exhibit D, § 6.9).
In addition, the Foundation must provide the City with an annual report on
the OPC’s operations, and in conjunction with the City, form an Advisory Operations
Committee to address ongoing operational issues related to the OPC and any
concerns arising from nearby and adjacent areas of Jackson Park. [124] ¶ 21; [1255] (Exhibit D, §§ 17.3−.4). If the Foundation ceases to use the OPC for its permitted
purposes—essentially, operating the OPC—under the Use Agreement, the City may
terminate the Agreement. [124] ¶ 21; [125-5] (Exhibit D, §§ 6.1, 16.2).

14

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 15 of 52 PageID #:7494

E.

OPC Studies

The City did not perform a comparative analysis of the economic or other
community impact on the City as a result of building the OPC at one particular
location versus another. [112-1] ¶¶ 28−29. Rather, the DPD Study looked at the
Jackson Park site specifically, while studies performed by private institutions
analyzed the impact of generally placing the OPC in Chicago and the State of Illinois.
[124] ¶¶ 13, 55−56.
The DPD Study first looked at the environmental and community impact of
placing OPC on Jackson Park. Generally, it concluded that the OPC would increase
recreational opportunities on the South Side of Chicago, bring more visitors to
Jackson Park and the surrounding communities, increase the use of surrounding
open space, and improve safety. Id. ¶ 53. Specifically, it found that by closing certain
streets within Jackson Park, and by expanding or reconfiguring other streets in and
around Jackson Park, the OPC would, for example: (1) improve access by pedestrians
through the park, across the lagoons to the lake, id. ¶ 39; (2) offer unimpeded
pedestrian and bike access to the Museum of Science and Industry from the South
Side,” id. ¶ 40; (3) replace some of the land currently occupied by Cornell Drive with
a “restful Woodland Walk,” id. ¶ 41; (4) create new pedestrian access points and ADA
compliant design features, id. ¶ 42; and (5) reduce air and noise pollution, improve
existing bird habitats, and attract new wildlife to the OPC site area, id. ¶ 47. In total,
the DPD Study found that the roadway work conducted in connection with the OPC

15

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 16 of 52 PageID #:7494

will create a net gain of an additional 4.7 acres of publicly available park space
throughout Jackson Park. Id. ¶ 45.
The DPD Study also addressed the OPC’s economic benefits. It found that the
OPC would create nearly 5,000 new, local jobs during construction, and more than
2,500 permanent jobs once the OPC opens.

Id. ¶ 54. Deloitte Consulting LLP

similarly completed a report, commissioned by the Chicago Community Trust, 6
assessing the OPC’s economic impact on the State of Illinois and City, as well as the
South Side. Id. ¶ 55. It projected that the OPC’s construction and operation would
create an increase of $11.3 million in revenue generated on an annual basis from
state and local taxes within Cook County.

Id.

A study commissioned by the

University of Chicago and conducted by Anderson Economic Group also projected that
by building the OPC on the South Side, tax revenue for the City and for Chicago
Public Schools would increase by a combined $5 million annually. Id. ¶ 56.
F.

OPC Costs

The City has estimated the costs for roadway alterations and other
infrastructure work in Jackson Park at $174 million to $175 million. [112-1] ¶ 33;
[127-5] at 22−23. According to Defendants, portions of this estimated cost will go
towards infrastructure improvements in areas of Jackson Park not adjacent to the
OPC to further the Park District’s broader South Lakefront Plan.

[139] ¶ 33

(Defendants’ response); [128-4] at 012159. A traffic impact study conducted by Sam
Schwartz Engineering, DPC demonstrates that the Washington Park site would have
The Chicago Community Trust serves as a “community foundation dedicated to making the
Chicagoland region more vibrant through service.” [128-5] at 5.
6

16

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 17 of 52 PageID #:7494

also required substantial roadway alterations, although it did not estimate a specific
cost. [139] ¶ 1; [139-4].
In 2015, the City estimated costs for environmental remediation to the OPC
site within Jackson Park at $1,246,083 to $1,852,831. [112-1] ¶ 34; [114-9] at 011749.
Comparably, the City estimated environmental remediation costs for the proposed
Washington Park site at $2,506,836 to $6,959,946. Id. Other estimated costs related
to constructing the OPC in Jackson Park include: $3,285,843 for relocating utilities,
[112-1] ¶ 35; $367,800 for relocating a water main and fire hydrant, id. ¶ 36; and
$4,972.72 for architectural/engineering services, id. ¶ 37.
F.

Procedural History

On February 19, 2019, this Court granted in part and denied in part
Defendants’ motion to dismiss based upon lack of subject matter jurisdiction. [92]. 7
Plaintiffs’ remaining claims assert: (1) a violation of due process under 18 U.S.C. §
1983 (Count I); (2) breach of the public trust under Illinois law (Count II); (3) ultra
vires action under Illinois law (Count III); (4) a request for declaratory judgment as
to the inapplicability of the Illinois Museum Act (Count IV); and (5) a special
legislation claim under Illinois law (Count V). [91].

This Court previously granted six motions for leave to file briefs as amici curiae in relation to
Defendants’ motion to dismiss or for judgment on the pleadings [48]. See [77]. Following the parties’
cross-motions for summary judgment, the amicus authors requested that this Court consider their
original briefs at the summary judgment stage. See [113] [131] [132] [134]. This Court has carefully
considered all amicus briefs in relation to the parties’ cross-motions for summary judgment, [54-1] [561] [61-1] [69-1] [73] [75].

7

17

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 18 of 52 PageID #:7494

Following full discovery, the parties filed cross-motions for summary judgment
on May 3, 2019, [112] [122], their responses on May 17, 2019, [137] [138], and their
replies on May 24, 2019, [141] [143].
II.

Legal Standard
Summary judgment is proper where there is “no genuine dispute as to any

material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a). A genuine dispute as to any material fact exists if “the evidence is such that
a reasonable jury could return a verdict for the nonmoving party.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). The party seeking summary judgment
has the burden of establishing that there is no genuine dispute as to any material
fact. See Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986).
In determining whether a genuine issue of material fact exists, this Court must
construe all facts and reasonable inferences in the light most favorable to the nonmoving party. See CTL ex rel. Trebatoski v. Ashland Sch. Dist., 743 F.3d 524, 528
(7th Cir. 2014). The non-moving party has the burden of identifying the evidence
creating an issue of fact. Harney v. Speedway SuperAmerica, LLC, 526 F.3d 1099,
1104 (7th Cir. 2008). To satisfy that burden, the non-moving party “must do more
than simply show that there is some metaphysical doubt as to the material facts.”
Matsushita Elec. Indus. Co., Ltd. v. Zenith Radio Corp., 475 U.S. 574, 586 (1986).
Thus, a mere “scintilla of evidence” supporting the non-movant’s position does not
suffice; “there must be evidence on which the jury could reasonably find” for the nonmoving party. Anderson, 477 U.S. at 252.

18

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 19 of 52 PageID #:7494

Cross-motions for summary judgment “do not waive the right to a trial;” rather,
this Court treats “the motions separately in determining whether judgment should
be entered in accordance with Rule 56.” Marcatante v. City of Chicago, Ill., 657 F.3d
433, 438−39 (7th Cir. 2011).
III.

Analysis
Defendants move for summary judgment on all five of Plaintiffs’ remaining

claims. [123-1]. Plaintiffs, on the other hand, move for partial summary judgment
on their due process (Count I), public trust doctrine (Count II), and ultra vires (Count
III) claims.

[120] at 15. 8

This Court analyzes each remaining count in turn,

beginning with Plaintiffs’ public trust claim.
A.

Count II: Breach of the Public Trust
i.

Public Trust Origins

The public trust doctrine traces its roots back to English common law, during
the time when “the existence of tide waters was deemed essential in determining the
admiralty jurisdiction of courts in England.” Ill. Cent. R.R. Co. v. State of Illinois,
146 U.S. 387, 435 (1892); see also Propeller Genesee Chief v. Fitzhugh, 53 U.S. 443,
454−55 (1852). In England, no navigable stream existed “beyond the ebb and flow of
the tide,” nor were there any locations, outside of tide-waters, “where a port could be
established to carry on trade with a foreign nation, and where vessels could enter or

Even though Plaintiffs’ motion for summary judgment lists Count IV in its motion for summary
judgment, Plaintiffs later fail to address the merits of that count, and thus, waiver applies. Compare
[112] (moving for summary judgment on Count IV) with [120-1] at 15 (memorandum of law excluding
Count IV from the claims upon which Plaintiffs move for summary judgment); See generally [120-1].

8

19

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 20 of 52 PageID #:7494

depart with cargoes.” Propeller Genesee, 53 U.S. at 454−55. Accordingly, the public
maintained an interest in the use of tide-waters, and only the crown could “exercise
such dominion over the waters as would insure freedom in their use so far as
consistent with the public interest.” Ill. Cent., 146 U.S. at 436. Non-tide waters,
however, could be privately owned. Id.
The Supreme Court offered the “classic statement” of how U.S. courts should
apply this common law principle in Illinois Central Railroad. Lake Michigan Fed’n
v. United States Army Corp. of Eng’rs, 742 F. Supp. 441, 444 (N.D. Ill. 1990). In 1869,
the Illinois legislature granted Illinois Central Railroad, in fee simple, title to over
1,000 acres of submerged land extending into Lake Michigan about one mile from a
portion of Chicago’s shoreline, and authorized the railroad to operate a rail line over
the property. Ill. Cent., 146 U.S. at 444. After the railroad improved the property
and began operations, the legislature repealed the enabling legislation and revoked
its original grant. Id. at 438.
In rejecting the railroad’s challenge to the State’s action, the Court first held
that the common law distinction between tide and non-tide waters no longer applied;
the Great Lakes, while unaffected by the tide, still facilitated commerce “exceeding
in many instances the entire commerce of States on the borders of the sea.” Ill. Cent.,
146 U.S. at 436. Accordingly, the public trust doctrine, founded upon “the necessity
of preserving to the public the use of navigable waters from private interruption and
encroachment,” applied equally to “navigable fresh waters,” including the Great
Lakes. Id. at 436−37.

20

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 21 of 52 PageID #:7494

Second, the Court found that while the State owned the submerged land, it
could not transfer that land to the railroad because the State’s title was “held in trust
for the people of the State that they may enjoy the navigation of the waters, carry on
commerce over them, and have liberty of fishing therein, freed from the obstruction
or interference of private parties.” Id. at 452−53. Thus, the Court concluded that
“the control of the State for the purposes of the trust can never be lost, except as to
such parcels as are used in promoting the interests of the public therein, or can be
disposed of without any substantial impairment of the public interest in the lands
and waters remaining.” Id. at 453.
ii.

The OPC Site Sits Upon Never-Submerged Land

As an initial matter, the parties dispute whether under the public trust
doctrine, the OPC site constitutes land that was never submerged under Lake
Michigan or land that was formerly submerged under the Lake. As is discussed
below, this determination directs what level of deference this Court gives to the State
in applying the public trust doctrine under Illinois law.
Both parties concede that as early as 1822, and at the time the state authorized
the creation of Jackson Park in 1869, the OPC site sat above Lake Michigan. [124]
¶¶ 8−9; [136] ¶ 9 (Plaintiffs’ response); [124-5] (Excerpt of 1822 Map of Federal
Township, including Far West Section 13 in which the OPC site is located).
Nevertheless, Plaintiffs contend that the OPC site constitutes formerly submerged
land, based solely upon an Illinois State Archaeological Survey (ISAS) Technical
Report. [136] ¶ 9 (Plaintiffs’ response). Plaintiffs fail to note, however, that the map

21

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 22 of 52 PageID #:7494

to which they site in the ISAS report documents the “Late Pleistocene and early
Holocene lake levels.” [136-3] at 10. In other words, Plaintiffs invite this Court to
find that because the OPC site may have been submerged approximately 11,000 years
ago, it constitutes “formerly submerged” land for purposes of the public trust doctrine.
[136-3] at 7−10.
Respectfully, this Court declines Plaintiffs’ invitation. The Illinois Supreme
Court has held that the date of Illinois’ admission into the Union serves as the date
it “became vested with the title to the beds of all navigable lakes and bodies of water
within its borders.”

Wilton v. Van Hessen, 94 N.E. 134, 136 (Ill. 1911).

Put

differently, this Court must ask whether land was submerged as of the date Illinois
achieved statehood.
Defendants’ map, obtained from the Illinois State Archives, demonstrates that
as early as 1822, the OPC site sat above Lake Michigan. [124] ¶ 9; [124-5]. Plaintiffs
fail to offer any evidence or argument to demonstrate that just four years earlier—
when Illinois entered the Union—the OPC site sat beneath the Lake. See generally
[137]. In fact, the page to which Plaintiffs cite in the ISAS report includes a map
from the “Early Nipissing” period showing that as recently as 4,000 years ago,
Jackson Park sat above ground. [142] ¶ 9; [136-3] at 10. 9 As such, the factual record
confirms that the OPC site constitutes never-submerged land under the public trust
doctrine. This Court now turns to the merits of the parties’ public trust arguments.

9

Plaintiffs conceded this point at oral argument.

22

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 23 of 52 PageID #:7494

iii.

The Public Trust Doctrine Applies to the OPC Site

Defendants first argue that because Illinois Central referred only to “navigable
waters,” and because the OPC site sits upon never-submerged land, the OPC cannot
fall within Illinois Central’s application of the public trust doctrine. [123-1] at 18.
But Illinois courts have extended the public trust doctrine to Chicago parkland,
including land within Jackson Park, because of the 1869 Act’s directive that such
land “shall be held, managed and controlled by them and their successors, as a public
park, for the recreation, health and benefit of the public, and free to all persons
forever.” See Clement v. Chi. Park Dist., 449 N.E.2d 81, 84 (Ill. 1983) (affirming lower
court’s approval of a golf driving range in Jackson Park under a public trust doctrine
analysis); Paepcke, 263 N.E.2d at 15−19 (Ill. 1970) (applying public trust doctrine to
park land in Washington and Douglas Parks). Thus, consistent with prior caselaw,
this Court analyzes the OPC site under the public trust doctrine.
iv.

Deference

Next, Plaintiffs argue that this Court should apply a general level of
“heightened scrutiny” when analyzing the OPC site under the Illinois public trust
doctrine. [120-1] at 16−17. Not so. Illinois public trust cases require courts to apply
the doctrine using varying levels of deference, based upon the property’s relationship
to navigable waterways. See, e.g., Paepcke, 263 N.E.2d at 15−19 (applying public
trust doctrine to never-submerged park land); Friends of the Parks v. Chicago Park
Dist., 786 N.E.2d 161, 169−170 (Ill. 2003) (applying public trust doctrine to formerly
submerged land); Lake Michigan Fed’n, 742 F. Supp. at 444−46 (applying public trust

23

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 24 of 52 PageID #:7494

doctrine to presently submerged land). In fact, Plaintiffs recognize that such levels
of deference exist when asserting that the OPC site sits upon formerly submerged
land. See, e.g., [136] ¶ 9; [91] ¶ 45.
The below analysis, therefore, finds that the OPC does not, as a matter of law,
violate the public trust under the level of scrutiny applied to never-submerged lands.
In the alternative, this Court also finds that, even under the heightened levels of
scrutiny (applied to formerly submerged and submerged lands), the OPC still does
not violate the public trust.
a.

Never-Submerged Land: Paepcke Requires
Deference to the Illinois Legislature

The Illinois Supreme Court recognizes that Illinois legislators retain
significant control over never-submerged land they themselves choose to designate
within the public trust; and thus, when applying the public trust doctrine to land that
is not—and never has been—submerged, reviewing courts must ask only whether
sufficient legislative intent exists for a given land reallocation or diversion. See
Paepcke, 263 N.E.2d at 19.
In Paepcke, the court considered allowing Chicago’s Public Building
Commission, with the Park District’s cooperation, to construct a school-park facility
on never-submerged land within Washington Park. Id. at 14. As in this case, the
land at issue derived from the 1869 Act. Id. at 13. There, the court affirmed the trial
court’s dismissal of plaintiffs’ challenge under the public trust doctrine because
“sufficient manifestation of legislative intent” existed to “permit the diversion and
reallocation contemplated” by defendants’ plan. Id. at 18−19. In finding the requisite
24

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 25 of 52 PageID #:7494

legislative intent under the Public Building Commission Act and related statutes, the
court warned that “courts can serve only as an instrument of determining legislative
intent as evidenced by existing legislation measured against constitutional
limitations” and in “this process the courts must deal with legislation as enacted and
not with speculative considerations of legislative wisdom.” Id. at 21. Thus, courts
facing public trust claims over statutorily designated parkland must ask only
whether legislation “is sufficiently broad, comprehensive and definite to allow the
diversion” at issue. Id. at 19 (citing People ex rel. Stamos v. Public Building Com.,
238 N.E.2d 390 (Ill. 1968)).
Here, as in Paepcke, sufficient legislative intent exists to permit diverting a
portion of Jackson Park for the OPC. The relevant piece of legislation—the Park
District Aquarium and Museum Act (Museum Act)—explicitly states that cities and
park districts with control or supervision over public parks have authorization to:
purchase, erect, and maintain within any such public park or parks
edifices to be used as aquariums or as museums of art, industry, science,
or natural or other history, including presidential libraries, centers, and
museums . . .
70 ILCS 1290/1 (emphasis added).
Moreover, the Museum Act permits the City to contract with private entities
to build a presidential center:
The corporate authorities of cities and park districts . . . [may] permit
the directors or trustees of any corporation or society organized for the
construction or maintenance and operation of an aquarium or museum
as hereinabove described to erect, enlarge, ornament, build, rebuild,
rehabilitate, improve, maintain, and operate its aquarium or museum
within any public park . . . and to contract with any such directors or
trustees of any such aquarium or museum relative to the erection,
25

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 26 of 52 PageID #:7494

enlargement, ornamentation, building, rebuilding, rehabilitation,
improvement, maintenance, ownership, and operation of such aquarium
or museum.
Id. (emphasis added).
This clear legislative directive states a broad, comprehensive and definite
intention to allow the City to contract with directors or trustees of a museum (the
Foundation) to build a presidential center (the OPC) in a public park (Jackson Park).
See also People v. Pack, 862 N.E.2d 938, 940 (Ill. 2007) (“The best indication of
legislative intent is the statutory language, given its plain and ordinary meaning.”).
In other words, the Museum Act reflects the legislature’s determination that
presidential centers, as a type of museum, remain consistent with a parcel’s
designation as public parkland. See also Furlong v. South Park Comm’rs, 151 N.E.
510, 511 (Ill. 1926) (declining to enjoin South Park Commissioners’ efforts to issue
bonds to renovate Fine Arts Building to include a museum—now the Museum of
Science and Industry—in Jackson Park, because park purposes “are not confined to
a tract of land with trees, grass and seats, but mean a tract of land ornamented and
improved as a place of resort for the public, for recreation and amusement of the
public.”); Fairbanks v. Stratton, 152 N.E.2d 569, 575 (Ill. 1958) (upholding
construction of an exposition building and auditorium—now the McCormick Place
convention center—on submerged land under the public trust doctrine).
1.

The Museum Act Authorizes the OPC

Nevertheless, Plaintiffs argue that the Museum Act fails to “authorize the
[OPC] transaction” because the Act fails to specifically cite to Jackson Park. [120-1]

26

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 27 of 52 PageID #:7494

at 32−33; [137] at 19−20; [143] at 11. 10 They rely upon Friends of the Parks v. Chicago
Park Dist., 160 F. Supp. 3d 1060, 1064−65 (N.D. Ill. 2016) (Lucas II), in which the
court evaluated a Park District proposal to enter a 99-year ground lease with the
Lucas Museum of Narrative Art under the Museum Act.

[120-1] at 33. There,

plaintiffs’ due process and ultra vires claims alleged that the legislature failed to
specifically reference the land subject to the ground lease; and the court denied
defendants’ motion to dismiss both claims. Friends of the Parks, 160 F. Supp. 3d at
1064−65.
Even assuming that the Lucas II case was rightly decided (which this Court
need not address), that ruling does not apply here. First, that case involved formerly
submerged land, rather than never-submerged parkland held in trust due to a
legislative enactment, and thus warranted a different level of deference. Id. at 1063.
Second, Lucas II involved a long-term lease, and therefore a different portion of the
Museum Act. Id. at 1068. Third, the court considered whether sufficient legislative
authorization existed only in relation to plaintiffs’ procedural due process and ultra
vires claims, instead of their public trust claim. Id. at 1064−66. And fourth, the court
evaluated the issue of legislative authorization only at the motion to dismiss stage,
rather than on the merits at summary judgment:
Plaintiffs . . . plead that the General Assembly, in enacting the [Museum
Act] purportedly transferring control of the property, did not “refer
Plaintiffs make their detailed comments regarding the absence of proper legislative authorization
with respect to their due process claim [120-1] at 32−33, but they also contend that courts must apply
the “heightened scrutiny” standard to all types of land in evaluating a public trust claim as well [1201] at 16. Because this Court finds proper legislative authorization relevant to its analysis of both the
due process and the public trust doctrine claims, this Court considers Plaintiffs’ authorization
arguments under both counts.
10

27

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 28 of 52 PageID #:7494

specifically to the alienation, forfeiture or disposition of the land that is
subject of the ground lease.” Plaintiffs have alleged that, by failing to
provide specific approval for the transfer of the subject land, the General
Assembly has acted in violation of Plaintiffs’ right to due process.
Construing the allegations in Plaintiffs’ favor, Plaintiffs have
sufficiently stated a procedural due-process claim under the Fourteenth
Amendment.
Id. at 1064−65; see also id. at 1065−66 (articulating the same reasoning in relation to
plaintiffs’ ultra vires claim).
Most importantly, in Paepcke, the Illinois Supreme Court explicitly rejected
plaintiffs’ argument that the “legislature must clearly and specifically state with
reference to the park or parks in question explicit authority to divert to new public
uses.” 263 N.E.2d at 19. Paepcke insists that courts should consider whether the
legislature stated sufficiently broad, comprehensive, and definite intent.

Id.

(adopting analysis in Stamos, 238 N.E.2d at 398). Here, as in Paepcke, this Court
finds that the Museum Act evinces that intent, and therefore sufficiently authorizes
construction of the OPC in Jackson Park.
Plaintiffs also assert that even if the Museum Act authorizes the transaction,
it cannot “release the restriction” contained in the 1869 Act that Jackson Park must
remain “a public park, for the recreation, health and benefit of the public, and free to
all persons forever.” [120-1] at 20, 33. Plaintiffs argue that Defendants seek to
reallocate “open, free public park to a more restrictive use by authorizing the
Foundation to erect numerous building[s] that will not be open and free, and will have
restricted and paid access.” Id.
Certainly, the Museum Act does not lift the 1869 Act’s “restriction.”

See

generally 70 ILCS 1290/1. But, Illinois courts have time and again made clear that
28

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 29 of 52 PageID #:7494

museums and other structures—including those with fees—fall within permissible
public park purposes and thus do not violate the 1869 Act. Furlong, 151 N.E.2d at
511 (recognizing the “construction and maintenance of a building for museums, art
galleries, botanical and zoological gardens, and many other purposes, for the public
benefit,” as legitimate park purposes); Clement v. O’Malley, 420 N.E.2d 533, 540−41
(Ill. App. Ct. 1981) (approving construction of golf course in Jackson Park, in part
because the “mere fact that a fee is charged for the use of special facilities does not as
such render the facility closed to the public, provided such fees are reasonable for the
general population of the community.”) (internal citation omitted), aff’d sub nom.,
Clement v. Chi. Park Dist., 449 N.E.2d at 84. Moreover, the same terms of the
Museum Act apply to the Museum of Science and Industry, also located in Jackson
Park. [124] ¶ 31.
And even if the Museum Act did violate the 1869 Act, the Paepcke court—
upholding construction of a school building not open to “all persons forever”—made
clear that the state legislature, having created the parkland, could reallocate its use.
See 263 N.E.2d at 18 (“[A]s far as the rights of the public in public trust lands are
concerned,” it would be “contrary to well established precedent” to hold that “the
legislature could never, by appropriate action, change or reallocate the use in any
way.”); see also Choose Life Ill., Inc. v. White, 547 F.3d 853, 858 n.4 (7th Cir. 2008)
(“It is axiomatic that one legislature cannot bind a future legislature.”).
The Illinois General Assembly, through the Museum Act, sufficiently
authorizes the construction and operation of the OPC in Jackson Park. As such, this

29

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 30 of 52 PageID #:7494

Court cannot find, as a matter of law, that the OPC violates the public trust doctrine.
Nonetheless, in the alternative, this Court next analyzes the OPC site under the
remaining levels of public trust scrutiny for clarity and finality.
b.

Formerly Submerged Land: No Corresponding
Public Benefit Test

The next level of scrutiny (used for formerly submerged land) under the public
trust doctrine also requires a finding in Defendants’ favor. Under this standard, a
diversion of formerly submerged parkland violates the public trust only if it: (1) does
not contain sufficient legislative authorization, pursuant to Paepcke; and (2)
primarily benefits a private entity, with no corresponding public benefit. Friends of
the Parks, 786 N.E.2d at 169−70 (citing Paepcke, 263 N.E.2d at 21).
In Friends of the Parks, the Illinois Supreme Court considered a section of the
Illinois Sports Facilities Authority Act, which permitted public financing of physical
improvements to Soldier Field. Id. at 163. The land at issue occupied formerly
navigable, or submerged, water of Lake Michigan. Id. at 163. There, plaintiffs
argued that the Sports Facilities Authority Act violated the public trust doctrine
because it allowed a private party (the Bears) to use and control Soldier Field “for its
primary benefit with no corresponding public benefit.” Id. at 169.
In upholding the lower court’s grant of summary judgment, the court first
distinguished two cases—both of which involve submerged land—which Plaintiffs
here also rely upon: Illinois Central and People ex rel. Scott v. Chicago Park District,
360 N.E.2d 773 (Ill. 1976):

30

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 31 of 52 PageID #:7494

There is little similarity between Illinois Central or Scott and the case
before us. The Park District is, and will remain, the owner of the
Burnham Park property, including Soldier Field. Neither the Act, the
implementing agreements, nor the project documents provide for a
conveyance of the Soldier Field property to the Bears. There is no
abdication of control of the property to the Bears. The Park District will
continue in its previous capacity as landlord under a lease agreement
with the Bears and will continue in its existing role as owner of the
remainder of the Burnham Park property.
Id. at 170. Here too, the City will retain ownership over the OPC site, as well as the
OPC buildings once constructed by the Foundation. Exhibit D, §§ 2.1−.2, 4.4. And
the City will not abdicate control over the site: if the Foundation ceases to use the
OPC for its permitted purposes under the Use Agreement, the City may terminate
the Agreement. [124] ¶ 21; [125-5] (Exhibit D, §§ 6.1, 16.2).
Second, the court invoked Paepcke’s language regarding legislative intent,
finding it “equally applicable” that the General Assembly had authorized public
financing for renovating government-owned stadiums under the Sports Facilities
Authority Act. 786 N.E.2d at 170. Here, this Court again notes that such clear
authorization exists in the form of the Museum Act.
And finally, the court noted that through improvements to Soldier Field, the
public would enjoy “athletic, artistic, and cultural events” as well as better access to
the stadium, museums, and the “lakefront generally” due to improved parking. Id.
Because of these public benefits, the project proposal did not violate the public trust
doctrine, even though the court acknowledged that the Bears, as a private entity,
would also benefit from the project. Id. As such, even if this Court considers a forprofit sports team comparable to a non-profit foundation seeking to build a
31

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 32 of 52 PageID #:7494

presidential center, Friends of the Parks confirms that any benefits the Foundation
receives from the OPC do not render the OPC violative of the public trust doctrine.
Rather, diverting formerly submerged parkland violates the public trust only if it
primarily benefits a private entity with “no corresponding public benefit.” Id. at
169−70.
And the OPC surely provides a multitude of benefits to the public. It will offer
a range of cultural, artistic, and recreational opportunities—including an educational
museum, branch of the Chicago Public Library, and space for large-scale athletic
events—as well as provide increased access to other areas of Jackson Park and the
Museum of Science and Industry.

See [124] ¶¶ 25−30, 39−47.

In short, if

improvements to a football stadium sufficiently benefit the public, the OPC must, too.
Accordingly, the OPC does not violate the public trust doctrine under the level of
scrutiny applied to formerly submerged lands, as articulated in Friends of the Parks.
c.

Submerged Land: Primary Purpose Standard

Finally, an analysis of those cases in which courts have considered presently
submerged land further demonstrates that the OPC does not violate the public trust
doctrine. Under the public trust test applicable to such land, courts ask whether the
“primary purpose” of a legislative grant is “to benefit a private interest.”

Lake

Michigan Fed’n, 742 F. Supp. at 445; Scott, 360 N.E.2d at 781 (finding a public trust
violation where the court could “perceive only a private purpose for the grant.”).
In Scott, for example, the Illinois Attorney General sued to invalidate a statute
authorizing U.S. Steel Corporation to purchase a portion of Lake Michigan to expand

32

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 33 of 52 PageID #:7494

its steel plant. 360 N.E.2d at 779−80. The relevant authorizing legislation stated
that the additional facility would “result in the conversion of otherwise useless and
unproductive submerged land into an important commercial benefit development to
the benefit of the people of the State of Illinois.” Id. at 781. Further, defendant steel
company argued that the facility would serve the public by creating jobs and boosting
the city and state economy. Id. The court invalidated the statute, holding that while
“courts certainly should consider the General Assembly’s declaration that given
legislation is to serve a described purpose,” the “self-serving recitation of a public
purpose within a legislative enactment is not conclusive of the existence of such
purpose.” Id. (internal citation omitted). Rather, to “preserve meaning and vitality
in the public trust doctrine, when a grant of submerged land beneath waters of Lake
Michigan is proposed . . . the public purpose to be served cannot be only incidental
and remote.” Id.
Even if the OPC falls within the standard of review applicable to presently
submerged land (which it does not), this Court cannot find the Museum Act’s
explanation of presidential centers’ public benefits “self-serving” or “incidental and
remote.” The Museum Act states that presidential centers, as a type of museum,
further “human knowledge and understanding, educating and inspiring the public,
and expanding recreational and cultural resources and opportunities.” 70 ILCS
1290/1. This explanation of the OPC’s public benefits aligns with well-established
caselaw. See, e.g., Furlong, 151 N.E. 510 at 511 (finding that because parks exist as
places “of resort for the public, for recreation and amusement” the “construction and

33

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 34 of 52 PageID #:7494

maintenance of a building for museums, art galleries . . . and many other purposes,
for the public benefit” are legitimate park purposes); see also Fairbank, 152 N.E.2d
at 575 (upholding construction of an exposition building and auditorium on
submerged land in Burnham Park because they were “in the public interest” and thus
did not violate the public trust doctrine). And the OPC’s primary purpose matches
this legislative directive, as its principal building and “central mission”—the
Museum—seeks to educate the public by telling “the stories of the first African
American President and First Lady of the United States, their connection to Chicago,
and the individuals, communities, and social currents that shaped their local and
national journey.” [124] ¶¶ 24−25.
Unconvincingly, Plaintiffs attempt to twist this public benefit into a private
purpose, arguing that the Museum’s mission merely “seeks to preserve and enhance
the legacy of the former President and his wife” rather than benefit the public. [1201] at 24; [137] at 13. But this Court cannot accept such a mischaracterization; under
Plaintiffs’ theory, any museum with which a select group of individuals disagree could
violate the public trust. This Court will not, as the Paepcke court cautioned against,
transform itself into a legislature or zoning board and then rewrite the educational
merits of any given museum or presidential center built on public trust land. 263
N.E.2d at 21; see also Friends of the Parks, 786 N.E.2d at 165 (where plaintiffs
submitted an economics professor’s affidavit to argue that authorizing legislation
benefited a private interest, rather than serve the declared public objectives

34

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 35 of 52 PageID #:7494

announced in the Act, the trial court correctly considered the affidavit irrelevant and
declined to inquire “into the merits or accuracy of the legislative findings”).
The case before this Court does not involve proposals to use public trust land
to expand railroad tracks, Illinois Central, 146 U.S. at 436−37, a steel plant, Scott,
360 N.E. at 775, or even a private university, Lake Michigan Fed’n, 742 F. Supp. at
443. Rather, Defendants seek to contract with the Foundation to build facilities such
as a museum, branch of the Chicago Public Library, and outdoor recreational areas—
all of which the City will own. [124] ¶¶ 23−30, 34. This project involves a public
park, not a forest preserve. Accordingly, this Court relies upon controlling caselaw,
constitutional limitations, the City Council’s determinations, and the Museum Act in
finding that the OPC’s primary purpose benefits the public, rather than private
interests. As such, this Court finds that the OPC survives the (inapplicable) level of
scrutiny provided to presently submerged lands under the public trust doctrine.
v.

The OPC Withstands Scrutiny Under the Wisconsin
Factors

In Paepcke, the Illinois Supreme Court found “it appropriate to refer to the
approach developed by the courts of our sister State, Wisconsin, in dealing with
diversion problems.” 263 N.E.2d at 19. The court proceeded to list the five factors
used under Wisconsin’s interpretation of the public trust doctrine:
(1) that public bodies would control use of the area in question, (2) that
the area would be devoted to public purposes and open to the public, (3)
the diminution of the area of original use would be small compared with
the entire area, (4) that none of the public uses of the original area would
be destroyed or greatly impaired and (5) that the disappointment of
those wanting to use the area of new use for former purposes was
35

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 36 of 52 PageID #:7494

negligible when compared to the greater convenience to be afforded
those members of the public using the new facility.
Id. The court then noted that while “not controlling under the issues as presented in
this case we believe that standards such as these might serve as a useful guide for
future administrative action.” Id.; see also Friends of the Parks, 2015 WL 1188615,
at *5 (N.D. Ill. Mar. 12, 2015) (Lucas I) (noting that the “‘Wisconsin test’ . . . was not
adopted as applicable in public trust cases, and the Illinois Supreme Court again
declined to use the test in Friends of the Parks.”) (citing Friends of the Parks, 786
N.E.2d 161).
In Clement, the Illinois appellate court approved the Park District’s proposal
to construct of a golf driving range in Jackson Park under a public trust analysis. 420
N.E.2d at 540−41. But unlike in Paepcke, no state authorizing legislation existed
from which the court could infer sufficient legislative intent. As such, the court
analyzed the Jackson Park driving range according to the five Wisconsin factors:
The property will still be controlled by the Park District. The mere fact
that a fee is charged for the use of special facilities does not as such
render the facility closed to the public, provided such fees are reasonable
for the general population of the community. In this respect, we note
nothing in the record to indicate the charges were unreasonable.
Moreover, the designation of 11 acres as a driving range is small
compared to the approximately 570 total acres in Jackson Park, and the
public uses of the original area have not been destroyed or greatly
impaired since picnicking, casual play activities, jogging, and meadow
bird nesting are still possible elsewhere in the park. Finally, due to the
small amount of land taken up by the driving range relative to total park
acreage, the disappointment of those wanting to use the area for former
purposes is likely to be slight – particularly since the range now offers
the same convenience to south area public which has been provided in
the north area for many years in Lincoln Park.
36

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 37 of 52 PageID #:7494

Id. at 541 (internal citations omitted). Although this Court need not apply the
Wisconsin factors here, both parties discuss them here in relation to the OPC. See
[137] at 4; [141] at 4. As such, this Court finds, as did the Paepcke court, that they
provide helpful guidance under the public trust doctrine.
An analysis of the OPC under the Wisconsin factors requires the same result
as in Clement. If the Foundation ceases to use the OPC for its permitted purposes
under the Use Agreement, the City may terminate the Agreement. [124] ¶ 21; [1255] (Exhibit D, §§ 6.1, 16.2). Only a portion of the OPC will require an entrance fee,
and the Use Agreement and Museum Act require: (1) free admission to all Illinois
residents at least 52 days out of the year; (2) free admission for Illinois school children
accompanied by a teacher; and (3) an admission fee policy for City residents and
certain low-income individuals “substantially comparable” to those maintained by
other museums in Jackson Park. [124] ¶ 37; [125-5] (Exhibit D, § 6.10). The OPC
will comprise only 19.3 acres, or 3.5 percent of Jackson Park’s total 551.52 acres.
[124] ¶ 6. As in Clement, the site will not destroy or greatly impair the land’s original
use; activities such as picnicking, jogging, and meadow bird nesting will not only be
accessible in other areas of the park, but also within certain parts of the OPC site.
Id. ¶¶ 30, 47. And here, too, the small amount of land taken up by the OPC site
relative to total park acreage means the disappointment of those wanting to use the
area for former purposes remains slight, particularly given: (1) the OPC’s proposed
green space areas; and (2) that the Museum of Science and Industry already exists

37

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 38 of 52 PageID #:7494

within the park. Id. ¶ 31. Here, as in Clement, this Court finds that the OPC satisfies
the Wisconsin factors.
vi.

Plaintiffs’ Alternative Legal Theories Fail

Plaintiffs offer two alternative public trust theories in support of their motion
for

summary

judgment:

(1)

a

comparative,

benefit-maximization

analysis

demonstrates that the choice to locate the OPC in Jackson Park constitutes an
“arbitrary” or “unreasonable” legislative decision; and (2) the Foundation will not pay
“fair market value” for use of the OPC site. [120-1] at 17−28. Neither theory exists
under Illinois law.
First, Plaintiffs argue that the City failed to perform an analysis of whether
locating the OPC on public trust park land “provides any benefit whatsoever over
locating the Presidential Center on non-public trust property,” and thus that the
decision to locate the OPC within Jackson Park remains “arbitrary” and
unreasonable.” [120-1] at 17−20. In other words, Plaintiffs dispute whether Jackson
Park is “the best” location for the OPC. Id. at 10, 18. But Plaintiffs fail to cite to any
instance in the public trust jurisprudence in which courts have required government
entities to pick “the best” location, much less require courts to review such
assessments de novo. Quite simply, Illinois law imposes no obligation upon this Court
to revisit the cost-benefit assessments of state and local lawmakers or otherwise sift
through impact studies on its own to determine whether the UIC proposed sites,
Washington Park, or Jackson Park constitutes the best location for the OPC. See,
e.g., River Park v. City of Highland Park, 23 F.3d 164, 165 (7th Cir. 1994) (“Federal

38

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 39 of 52 PageID #:7494

courts are not boards of zoning appeals.”). Rather, as is discussed above, courts need
only look to the relevant authorizing legislation and cited public benefits for a given
project within the lawmakers’ own analysis; in other words, “value dependent
assessment[s] of the best use of the property” are “highly subjective” and “irrelevant
to an analysis of the propriety of a grant of public land.” Lake Michigan Fed’n, 742
F. Supp. at 446.
Second, Plaintiffs argue that the Foundation’s $10.00 payment, which forms
part of its consideration for the Use Agreement, [125-5] (Exhibit D, Art. III), violates
the public trust doctrine based upon a “line of cases involving Mississippi’s treatment
of public trust property known as ‘sixteenth section lands.’” [120-1] at 24. According
to Plaintiffs, these cases require the City to charge a “reasonable rent” with due
regard” for leases of public trust property. Id. at 24−28. This theory is also unavailing
because, in short, Illinois law controls this case. Plaintiffs do not offer any Illinois
court that has cited to Plaintiffs’ line of Mississippi cases or adopted those cases’
reasoning or analysis. Accordingly, without addressing the possible implications of
Mississippi’s approach here, this Court declines to ignore controlling Illinois law in
favor of an unprecedented rule. See, e.g., Insolia v. Phillip Morris, Inc., 216 F.3d 596,
607 (7th Cir. 2000) (“Though district courts may try to determine how the state courts
would rule on an unclear area of state law, district courts are encouraged to dismiss
actions based on novel state law claims.”); MindGames, Inc. v. Western Publishing
Co., Inc., 218 F.3d 652, 655−56 (7th Cir. 2000) (“The rule is that in a case in federal

39

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 40 of 52 PageID #:7494

court in which state law provides the rule of decision, the federal court must predict
how the state’s highest court would decide the case, and decide it the same way.”).
For all of these reasons, this Court grants Defendants’ motion for summary
judgment as to Plaintiffs’ public trust claim (Count II) and denies Plaintiffs’ motion
for summary judgment as to Count II.
B.

Count I: Violation of Due Process

Plaintiffs originally based their due process claim upon three theories: (1)
aesthetic and environmental harm pursuant to Sierra Club v. Morton, 405 U.S. 727
(1972); (2) the public trust doctrine; and (3) the Fifth Amendment’s Takings Clause.
See [65-1] at 14; [91] ¶¶ 82−83, 85. This Court’s prior motion to dismiss opinion found
that Plaintiffs failed to establish standing based upon their aesthetic or
environmental harm theory, but found that Plaintiffs established standing based
upon the public trust doctrine. [92] at 11−14. Because Defendants’ 12(b)(1) motion
to dismiss did not challenge Plaintiffs’ Takings Clause theory based upon subject
matter jurisdiction, this Court did not consider it.

Id. at 8−9.

Therefore, only

Plaintiffs’ Takings Clause and public trust theories of due process remain.
i.

Plaintiffs’ Takings Clause Theory

As an initial matter, Plaintiffs’ Takings Clause theory, to the extent it is
included within Count I, fails as a matter of law. The Fifth Amendment states, in
relevant part: “nor shall private property be taken for public use, without just
compensation.” U.S. Const. amend. V. (emphasis added). By the clause’s plain
language, no unconstitutional taking can occur where, as here, the relevant property

40

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 41 of 52 PageID #:7494

is already public. See, e.g., Stop the Beach Renourishment, Inc. v. Florida Dep’t of
Envtl. Prot., 560 U.S. 702, 715 (2010) (“In sum, the Takings Clause bars the State
from taking private property without paying for it”); see also Reichelderfer v. Quinn,
287 U.S. 315, 323 (1932) (finding “[p]roperty was not taken” when legislation
authorized constructing a fire house on public parkland; rather, the “taking occurred
when the lands were condemned for the park.”). Plaintiffs concede that Jackson Park
exists as public parkland. [112-1] ¶ 15. Therefore, Plaintiffs’ takings clause theory
cannot survive summary judgment.
ii.

Plaintiffs’ Public Trust Theory

A procedural due process claim requires: (1) a cognizable property interest; (2)
a deprivation of that interest; and (3) inadequate process. Price v. Bd. of Educ., 755
F.3d 605, 607 (7th Cir. 2014); Palka v. Shelton, 623 F.3d 447, 452 (7th Cir. 2010).
Here, Plaintiffs’ public trust due process theory fails for two reasons. First, the
parties spend considerable time disputing whether, under the public trust doctrine,
Plaintiffs hold a sufficient property interest in the Jackson Park site to satisfy a
procedural due process claim. See [120-1] at 28−34; [123-1] at 31−34. 11 But even
assuming Plaintiffs hold a cognizable property interest, Plaintiffs’ due process claim
fails because they fail to demonstrate a deprivation of that interest.

In doing so, Plaintiffs rely heavily upon this Court’s prior motion to dismiss opinion, which found
that they established standing for purposes of their federal due process claim, [93] at 12. [120-1] at
29. But this Court’s finding that Plaintiffs have standing does not equate to success on the merits at
summary judgment. See, e.g., Booker-El v. Superintendent, Ind. State Prison, 668 F.3d 896, 899−900
(7th Cir. 2012) (“[S]tanding and entitlement to relief are not the same thing.”).
11

41

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 42 of 52 PageID #:7494

In particular, Plaintiffs argue that Defendants deprived them of adequate
process because the “Illinois legislature has not authorized the transactions at issue
between the Park District, the City and the Foundation, nor has the Illinois
legislature released the restriction on the Jackson Park Site.” [120-1] at 28. But, as
discussed in detail above with respect to Plaintiffs’ public trust claim under Paepcke,
the General Assembly—through the Museum Act—has authorized the OPC; the
Museum Act need not refer specifically to the alienation or disposition of the Jackson
Park site itself. See Paepcke, 263 N.E.2d at 19. Moreover, this Court has already
determined that neither the OPC nor the Museum Act violates the 1869 Act’s
restriction upon public parkland.

See Furlong, 151 N.E.2d at 511; Clement v.

O’Malley, 420 N.E.2d at 540−41. Thus, Plaintiffs fail to establish a deprivation of any
interest under their procedural due process claim. For this reason alone, their public
trust theory fails as a matter of law.
Second, Plaintiffs cannot base their federal due process claim solely upon
violations of state statutes. 12 See Hebert v. Louisiana, 272 U.S. 312, 316−17 (1926)
(“The due process of law clause in the Fourteenth Amendment does not take up the
statutes of the several states and make them the test of what it requires”); Tucker v.
City of Chicago, 907 F.3d 487, 495 (7th Cir. 2018) (“[F]ederal due process protection
is not a guarantee that state governments will apply their own laws accurately.”)

Plaintiffs’ response memorandum also argues that Defendants’ deprived them of adequate process
because the Illinois Property Transfer Act does not authorize the Park District’s Sale. [137] at 20. As
discussed below, this Court finds that the Property Transfer Act authorizes the Park District’s sale.
And regardless, this argument fails to establish a deprivation of any due process interest because it
relies solely upon an alleged violation of a state statute.
12

42

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 43 of 52 PageID #:7494

(citing Simmons v. Gillespie, 712 F.3d 1041, 1044 (7th Cir. 2013)); see also Coniston
Corp. v. Vill. of Hoffman Estates, 844 F.2d 461, 467 (7th Cir. 1988) (holding that a
“violation of state law is not a denial of due process law” where plaintiffs’ due process
claim sought review of Board of Trustees’ zoning decision under state law). Absent a
cognizable due process claim separate and apart from alleged violations of the
Museum Act and 1869 Act, Count I fails as a matter of law.
Accordingly, this Court grants Defendants’ motion for summary judgment as
to Count I, and denies Plaintiffs’ motion for summary judgment as to Count I.
C.

Count III: Ultra Vires Action

Plaintiffs’ ultra vires action claim, alleging that the Park District and City
engaged in ultra vires actions for which they have no authority, rests upon two
theories. [91] ¶ 99. First, Plaintiffs make the astounding argument that the OPC
violates the Museum Act because it contains outdoor green spaces, in addition to
buildings. [120-1] at 34. Second, Plaintiffs argue that because the City itself will not
use the OPC site for the term of the Use Agreement, the Park District’s transfer of
land violates the Illinois Property Transfer Act. Id. at 40. Defendants argue that a
plain reading of the relevant statutes dispels Plaintiffs’ claim. [123] at 37−39. This
Court agrees with Defendants.
i.

The Museum Act Authorizes the OPC’s Green Space

Plaintiffs’ first theory proceeds in two parts, as follows. The Museum Act
contains two provisions. The first states that the corporate authorities of cities and
park districts have authorization to:

43

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 44 of 52 PageID #:7494

purchase, erect, and maintain within any such public park or parks
edifices to be used as aquariums or as museums of art, industry, science,
or natural or other history, including presidential libraries, centers, and
museums, such aquariums and museums consisting of all facilities for
their collections, exhibitions, programming, and associated initiatives …
70 ILCS 1290/1 (emphasis added). In the same sentence, the Act clarifies that cities
and park districts may also contract with directors or trustees relative to the building
and operation “of such aquarium or museum.” Id.
The second sentence then begins:
Notwithstanding the previous sentence, a city or park district may enter
into a lease for an initial term not to exceed 99 years, subject to renewal,
allowing a corporation or society as hereinabove described to erect,
enlarge, ornament, build, rebuild, rehabilitate, improve, maintain, and
operate its aquarium or museum, together with the grounds immediately
adjacent to such aquarium or museum, and to use, possess, and occupy
grounds surrounding such aquarium or museum as hereinabove
described for the purpose of beautifying and maintaining such grounds
in a manner consistent with the aquarium or museum’s purpose . . .
Id. (emphasis added).
Based upon this second provision, Plaintiffs argue that the Museum Act only
authorizes the City to allow the Foundation to build and operate the OPC, together
with the grounds immediately adjacent to the OPC, if the City leases the OPC site to
the Foundation. [120-1] at 37. Because the Use Agreement does not create a lease
between the City and Foundation, Plaintiffs maintain that the OPC site cannot
contain any grounds surrounding the building “edifices,” and thus that the Use
Agreement authorizing OPC green space constitutes ultra vires activity. Id.; [112-1]
¶ 46.

44

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 45 of 52 PageID #:7494

Essentially, Plaintiffs ask this Court to find that a statute authorizing the
construction of a presidential center within a green space prohibits preserving green
space within such a center. This Court rejects such an absurd and bizarre reading of
the statutory text and context. The Museum Act’s first sentence—not relating to
leases—defines museums to include presidential centers. 70 ILCS 1290/1. The plain
language then goes on to clarify that museums include “all facilities for their
collections, exhibitions, programming, and associated initiatives.” Id. Reading the
Museum Act according to its express language, as this Court must, does not allow
this Court to limit “facilities” to just buildings. See, e.g., Williams v. Staples, 804
N.E.2d 489, 493 (Ill. 2004) (The plain language of the statute serves as “the most
reliable indicator of the legislature’s objectives in enacting a particular law.”)
(internal quotations omitted); Lawson v. FMR LLC, 571 U.S. 429, 440 (2014) (courts
must give “the words used their ordinary meaning”); Facility, New Oxford American
Dictionary 610 (3d ed. 2010) (“facility” defined as “space or equipment necessary for
doing something,” as in “facilities for picnicking, camping, and hiking.”).
The Foundation’s design for the OPC green space includes purposeful features
such as: (1) play areas for children; (2) contemplative spaces; (3) a sledding hill; (4) a
sloped lawn for picnicking, recreation and community and special events; (5) walking
paths; and (6) a nature walk along the lagoon. [124] ¶ 30. According to the Museum’s
mission statement, these “outdoor facilities” will “beautify and enhance the
recreational opportunities on the site, creating a fun, safe environment for visitors to
enjoy in all seasons.” [125-5] (Exhibit D, (Sub) Exhibit “C”). These features thus

45

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 46 of 52 PageID #:7494

comprise part of the OPC’s facilities for programming and associated initiatives.
Therefore, given the complete absence of any textual support for Plaintiffs’ novel
statutory construction, this Court cannot find that the Use Agreement, by
authorizing the OPC’s use of green space, constitutes ultra vires activity.
ii.

The Illinois Property Transfer Act Authorizes the OPC

Plaintiffs’ second theory argues that the Illinois Local Government Property
Transfer Act, 50 ILCS 605/0.01 et seq., does not authorize the Park District’s transfer
of the Jackson Park site to the City. 13 Section 2 of the Property Transfer Act provides:
If the territory of any municipality shall be wholly within, coextensive
with, or partly within and partly without the corporate limits of any
other municipality . . . and the first mentioned municipality (herein
called “transferee municipality”), shall by ordinance declare that it is
necessary or convenient for it to use, occupy or improve any real estate
held by the last mentioned municipality (herein called the “transferor
municipality”) in the making of any public improvement or for any
public purpose, the corporate authorities of the transferor municipality
shall have the power to transfer all of the right, title and interest held by
it immediately prior to such transfer, in and to such real estate, whether
located within or without either or both of said municipalities, to the
transferee municipality upon such terms as may be agreed upon by the
corporate authorities of both municipalities . . .
Id. at 605/2 (emphasis added). Based upon this language, Plaintiffs contend that the
Park District maintains authority to transfer the Jackson Park site to the City only
if the City itself will “use, occupy, or improve” the site for the OPC. [120-1] at 41.
Because the Use Agreement provides the Foundation with the right to occupy, use,

Plaintiffs also argue that the Park District violates section 2(b) of the Property Transfer Act, which
governs the transfer of municipality-owned land limited by restrictions. [137] at 22. This section only
applies if transferee municipalities desire the use of the land “free from” the relevant restriction. 50
ILCS 605/2(b). This Court has already found that the Museum Act and OPC do not violate the 1869
Act’s restriction on public parkland. Therefore, Plaintiffs’ section 2(b) argument fails under Count III
as well.
13

46

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 47 of 52 PageID #:7494

maintain, operate, and alter the OPC, Plaintiffs argue that the Park District’s
transfer constituted an ultra vires activity. Defendants, on the other hand, maintain
that: (1) the Property Transfer Act does not prohibit the acquiring municipality from
contracting with third parties to assist in improving the transferred land; and (2) the
Museum Act, Intergovernmental Cooperation Act, and Article VII, section 10(a) of
the Illinois Constitution authorize such a contract.

This Court agrees with

Defendants.
First, Article VII, section 10(a) of the Illinois Constitution permits units of local
government to “contract and otherwise associate with individuals, associations, and
corporations” in any manner not prohibited by law. Further, that same section allows
local governments to “transfer any power or function, in any manner not prohibited
by law or ordinance” to other units of local government.

Likewise, the

Intergovernmental Cooperation Act, 5 ILCS 220/2−3, allows units of local
governments to exercise, combine, transfer, and “enjoy jointly” any of their “powers,
privileges, functions, or authority,” except where expressly prohibited by law. Thus,
read together with the Property Transfer Act, these provisions demonstrate that: (1)
each Defendant, as an individual unit of local government, can separately contract
with third parties on land that they already own; and (2) either Defendant can
transfer land to the other, along with their power to contract with third parties on
that land.
Plaintiffs contend that none of these provisions apply, because they only allow
transfers not prohibited by law. See, e.g., [91] ¶¶ 63, 67. But Plaintiff fails to point

47

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 48 of 52 PageID #:7494

to any law that prohibits such transfers. For instance, the Property Transfer Act is
silent as to whether municipalities can contract with third parties to improve
transferred land. 14,

15

See 50 ILCS 605/2; see also Wittman v. Koenig, 831 F.3d 416,

425 (7th Cir. 2016) (“Legislative silence is ordinarily a weak indication of legislative
intent.”). And the Museum Act clearly authorizes the City to contract with the
Foundation in constructing and operating the OPC. 70 ILCS 1290/1. Moreover,
Plaintiffs’ reading of the statute would create the nonsensical result of prohibiting
transferee municipalities from ever contracting with engineers, architects, or
builders to improve a site. This Court rejects Plaintiffs’ theory and instead reads
each of the relevant provisions of Illinois law within context together and gives each
statute effect according to its plain terms. 16 Accordingly, this Court cannot find that

Plaintiffs also argue that the Park District’s transfer of the OPC site violates the Illinois Park
District Code, 70 ILCS 1205/10-7, which governs the terms by which park districts may sell, lease, or
exchange realty. [137] at 21. But the Park District Code explicitly states that it does not apply to the
Chicago Park District. 70 ILCS 1205/1-2(d). Accordingly, Plaintiffs’ ultra vires claim cannot succeed
based upon this theory.
14

Plaintiffs’ amended complaint references Article VIII, Section I(a) of the Illinois Constitution in
relation to their ultra vires claim. [91] ¶ 64. Article VIII, Section 1(a) provides that public funds,
property or credit shall be used only for public purposes. Plaintiffs make no such argument in their
motion for summary judgment, and thus they have waived the argument. See generally [120-1]. In
any event, this Court finds, consistent with its public trust analysis, that the OPC’s educational and
recreational benefits serve a public purpose. See, e.g., Friends of the Parks, 786 N.E.2d at 168−69
(finding that Soldier Field “has served public purposes since its dedication in 1924” and would
“continue to do so after the completion of the Burnham Park project as authorized by the Act.”);
Paschen v. Winnetka, 392 N.E.2d 306, 310 (Ill. App. Ct. 1979) (under article VIII, section 1(a), courts
must ask whether “governmental action has been taken which directly benefits a private interest
without a corresponding public benefit”).
15

Even if the Property Transfer Act’s silence could somehow be construed as ambiguous (which it is
not), this Court would reach the same result by reading each provision and construing them all
together (Property Transfer Act, Museum Act, Intergovernmental Cooperation Act, and Article VII,
section 10(a) of the Illinois Constitution). People v. 1946 Buick, VIN 34423520, 537 N.E.2d 748, 750
(Ill. 1989) (Illinois recognizes the doctrine of in pari materia, but only to resolve statutory ambiguities).
16

48

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 49 of 52 PageID #:7494

the Park District’s transfer of the Jackson Park site to the City constitutes an ultra
vires act under the Property Transfer Act.
This Court grants Defendants’ motion for summary judgment as to Count III
and denies Plaintiffs’ motion for summary judgment as to Count III.
D.

Count IV: Declaratory Judgment As to Inapplicability of the
Illinois Museum Act

Plaintiffs’ theory as to Count IV also falls short. Ostensibly, Plaintiffs contend
that the portions of the Museum Act amended in 2016 constitute retroactive changes,
and therefore seek a declaratory judgment that the Museum Act cannot authorize the
OPC. [91] ¶¶ 100−103.
Specifically, Plaintiffs’ allegations as to Count IV proceed as follows:
101. The 2016 Amendment to the Museum Act states on its face that
it is not retroactive. The temporal reach of the 2016 Amendment states
that the amendment is “declaratory of existing law,” and therefore the
substance of the 2016 Amendment cannot be made retroactive.
102. However, the 2016 Amendment is not declaratory of existing law.
Existing law at the time of the 2016 Amendment does not [ ] allow
aquariums and museums on formerly submerged lands, does not allow
undefined “edifices” for “presidential libraries and centers” on park land,
and does not allow the gifting of park land to private entities by allowing
multiple 99 year leases of park land to a private entity – all of which
were added in the 2016 Amendment to the Museum Act.
103. On information and belief, the Defendants will contend that the
Illinois Museum Act allows a Presidential Center to be constructed on
the Jackson Park Site. Therefore, an actual and justiciable controversy
exists between the Plaintiffs and the Defendants related to the
applicability of the Museum Act to the Presidential Center.
Defendants move for summary judgment on this claim, arguing that: (1) the
2016 amendment had no retroactive effect on the Operating Ordinance, as the City

49

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 50 of 52 PageID #:7494

Council enacted it in 2018; and (2) in any event, the General Assembly can lawfully
apply the amendment retroactively. [123-1] at 39−40. Plaintiffs, however, fail to
address Count IV in their response memorandum. See generally [137]. Failure to
respond to an argument results in waiver, and thus justifies granting Defendants’
motion for summary judgment as to Count IV. See Bonte v. U.S. Bank, N.A., 624 F.3d
461, 466 (7th Cir. 2010).
Nevertheless, this Court also agrees with Defendants that the Museum Act
cannot retroactively apply to the OPC.

To the extent Plaintiffs allege in their

amended complaint that the Museum Act “cannot be made retroactive,” the City did
not enact the Operating Ordinance, which authorized the City to accept the OPC site
from the Park District and enter into the Use Agreement, until two years after the
2016 amendment. [124] ¶ 19. Therefore, no record exists from which this Court can
find the 2016 amendment to the Museum Act constituted an unlawful retroactive
provision as applied to the OPC. This Court grants Defendants’ motion for summary
judgment as to Count IV.
E.

Count V: Special Legislation

Count V seeks to void the Museum Act under the Illinois Constitution’s Special
Legislation Clause, which prohibits a “special or local law when a general law is or
can be made applicable.” Ill. Const. 1970, art. IV, § 13. According to Plaintiffs, the
2016 amendment to the Museum Act “expressly” allowed a presidential center, and
thus constitutes special legislation. Defendants move for summary judgment as to

50

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 51 of 52 PageID #:7494

Count V because the 2016 amendment does not create an exclusionary classification.
This Court agrees.
As an initial matter, Plaintiffs spend the vast majority of their amended
complaint and summary judgment briefing arguing that the Museum Act fails to
authorize the OPC because it lacks specificity. In the same breadth, with respect to
Count V, Plaintiffs also claim that the General Assembly acted in an improperly
specific manner when it included “presidential centers” within the Act. [91] ¶ 109.
Count V falls, however, for the simple reason that it fails to survive Illinois courts’
two-part test for special legislation claims.
The special legislation clause prohibits the General Assembly from conferring
“a special benefit or privilege upon one person or group and excluding others that are
similarly situated.” Crusius v. Illinois Gaming Board, 837 N.E.2d 88, 94 (Ill. 2005).
While the legislature maintains broad discretion to make statutory classifications,
the special legislation clause prevents it from making classifications that arbitrarily
discriminate in favor of a select group. Id.; Big Sky Excavating, Inc. v. Illinois Bell
Telephone Co., 840 N.E.2d 1174, 1183 (Ill. 2005). Illinois courts thus apply a twopart test to determine whether a law constitutes special legislation: (1) whether the
statutory classification at issue discriminates in favor of a select group and against a
similarly situated group; and (2) if the classification does so discriminate, whether
the classification is arbitrary. Id.
Here, Plaintiffs object to the portion of the Museum Act which defines
museums to include “presidential libraries, centers, and museums.” [137] at 25; 70

51

Case: 1:18-cv-03424 Document #: 145 Filed: 06/11/19 Page 52 of 52 PageID #:7494

ILCS 1290/1. But this language does not discriminate in favor of a select group or
against a similarly situated group, nor does it create any unlawful classification
whatsoever. Rather, the Act merely enumerates traditional examples of museums
for purposes of the Act. See [91-3]; 70 ILCS 1290/1. As such, the amendment does
not exclude any entity wishing to operate a museum in a public park under the
Museum Act, and therefore fails the two-part test. See, e.g., Elem. Sch. Dist. 159 v.
Schiller, 849 N.E.2d 349, 363−64 (Ill. 2006) (finding no special legislation where law
did not exclude any entity from a benefit received by a property owner pursuant to
it). Accordingly, this Court grants Defendants’ motion for summary judgment as to
Count V.
IV.

Conclusion
For the reasons explained above, this Court grants Defendants’ motion for

summary judgment as to Counts I through V, [122], and denies Plaintiffs’ motion for
summary judgment as to Counts I through III, [112]. The Clerk shall enter judgment
for Defendants and against Plaintiffs. All set dates and deadlines are stricken. Civil
case terminated.
Dated: June 11, 2019

Entered:

__________________________________
John Robert Blakey
United States District Judge

52

APPENDIX D

Case: 19-2308

Document: 96

Filed: 10/13/2020

Pages: 1

United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604

AMENDED October 13, 2020
October 8, 2020
Before
DANIEL A. MANION, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
Nos. 19-2308 & 19-3333
PROTECT OUR PARKS, INC., and
MARIA VALENCIA,
Plaintiffs-Appellants,
v.
CHICAGO PARK DISTRICT
and CITY OF CHICAGO,
Defendants-Appellees.

Appeals from the United States District
Court for the Northern District of Illinois,
Eastern Division
No. 1:18-cv-3424
John Robert Blakey,
Judge.
ORDER

On September 4, 2020, Plaintiffs-Appellants filed a petition for rehearing en banc.
The judges on the panel have voted to deny rehearing, and no judge in regular active
service has requested a vote on the petition for rehearing en banc. *
Accordingly, it is ordered that the petition for rehearing en banc ** is DENIED.

*

Circuit Judge Barrett was a member of the panel when this case was decided on August 21, 2020, and
she voted against the panel rehearing this case. The petition for rehearing en banc is resolved by a
quorum of the panel pursuant to 28 U.S.C. § 46(d).

**

Judge Flaum and Judge Rovner did not participate in the consideration of this petition.

